<html>
<title> - BEST--BUILDING EDUCATIONAL SUCCESS TOGETHER</title>
<body><pre>[Senate Hearing 112-815]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-815

                         ROUNDTABLE DISCUSSION:
              BEST--BUILDING EDUCATIONAL SUCCESS TOGETHER

=======================================================================

                             FIELD HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   ON

    EXAMINING BUILDING EDUCATIONAL SUCCESS, FOCUSING ON EDUCATIONAL 
                 INITIATIVES FOR ALASKA NATIVE CHILDREN

                               __________

                    OCTOBER 19, 2012 (ANCHORAGE, AK)

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

76-457 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

BARBARA A. MIKULSKI, Maryland        MICHAEL B. ENZI, Wyoming
JEFF BINGAMAN, New Mexico            LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington             RICHARD BURR, North Carolina
BERNARD SANDERS (I), Vermont         JOHNNY ISAKSON, Georgia
ROBERT P. CASEY, JR., Pennsylvania   RAND PAUL, Kentucky
KAY R. HAGAN, North Carolina         ORRIN G. HATCH, Utah
JEFF MERKLEY, Oregon                 JOHN McCAIN, Arizona
AL FRANKEN, Minnesota                PAT ROBERTS, Kansas
MICHAEL F. BENNET, Colorado          LISA MURKOWSKI, Alaska
SHELDON WHITEHOUSE, Rhode Island     MARK KIRK, IIllinois
RICHARD BLUMENTHAL, Connecticut      


             Pamela J. Smith, Staff Director, Chief Counsel
                 Lauren McFerran, Deputy Staff Director
              Frank Macchiarola, Republican Staff Director

                                  (ii)










                            C O N T E N T S

                               __________

                               STATEMENTS

                        FRIDAY, OCTOBER 19, 2012

                                                                   Page

                           Committee Members

Murkowski, Hon. Lisa, a U.S. Senator from the State of Alaska, 
  opening statement..............................................     1

                               Witnesses

Simon, Christopher, Rural Education Coordinator, Alaska 
  Department of Education and Early Development, Juneau, AK......     3
    Prepared statement...........................................     4
Cowan, Peggy, Superintendent, North Slope Borough School 
  District, Barrow, AK...........................................     9
    Prepared statement...........................................    10
Worl, Rosita Ph.D., President, Sealaska Heritage Institute, 
  Juneau, AK.....................................................    13
    Prepared statement...........................................    14
Brown, Doreen E., Supervisor, Title VII Indian Education 
  Department, Anchorage School District, Anchorage, AK...........    20
    Prepared statement...........................................    24
Rose, Carl, Executive Director, Association of Alaska School 
  Boards, Juneau, AK.............................................    28
    Prepared statement...........................................    32
Roach, Sonta Hamilton, Teacher, Innoko River School, Shageluk, AK    34
    Prepared statement...........................................    36
O'Neill, Gloria, President and CEO, Cook Inlet Tribal Council, 
  prepared statement.............................................    51

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Nicole George, Juneau, AK....................................    54
    Letters by Julie Kitka, Alaska Federation of Natives, to:
        Senator Inouye...........................................    55
        Senators Murkowski, Begich, and Representative Young.....    55

                                 (iii)


 
              BEST--BUILDING EDUCATIONAL SUCCESS TOGETHER

                              ----------                              


                        FRIDAY, OCTOBER 19, 2012

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                     Anchorage, AK.
    The committee met, pursuant to notice, at 4:04 p.m., in 
Room 6, Dena'ina Center, Hon. Lisa Murkowski presiding.
    Present: Senator Murkowski.

                 Opening Statement of Senator Murkowski

    Senator Murkowski. We are calling to order the Field 
Hearing of the Senate Health, Education, Labor, and Pensions 
Committee. Thank you for joining us here this afternoon to talk 
about BEST--Building Educational Success Together, focused on 
educational initiatives with our Alaska Native children, where 
we are doing well, the good things, the challenges, the 
opportunities.
    I apologize, first off, for the late start. But we were 
held up upstairs with the ongoing dialogue, and when you're 
sitting at the front panel, it's really tough to get out. I 
could have left Congressman Young on the hook there, but we 
finished it up. So I apologize for the late start. But, 
hopefully, we will be able to have plenty of time for a good 
dialogue down here on an issue that I think we would all agree 
is extraordinarily important.
    I want to thank AFN for their leadership in hosting this 
discussion, for really placing a focus on education, and for 
their work in bringing us together today. I especially want to 
thank Rosita Worl, as a board member, as well as Gloria 
O'Neill. Gloria was upstairs with me on the other panel--but in 
addition to what you've done today to help, just your focus and 
advocacy at the Federal level on education and student success.
    We are very fortunate to have a good panel, a strong panel 
of individuals that are here to share their experiences, their 
perspectives, as well as their recommendations. And because the 
voice of our youth is absolutely key, absolutely critical, I've 
given each of our witnesses the option to select a student who 
can share an essay about their experiences in Alaska's schools, 
their recommendations for change, if any. And we've got folks 
that are listening to this field hearing today on the Web, so I 
appreciate their attention to this as well.
    As I mentioned, the title of the hearing is Building 
Educational Success Together. Certainly, the history of Alaska 
Native peoples show us that collaboration is absolutely key to 
any level of success. I think there's an awful lot that we can 
learn from each other. Much that is positive can be adopted, 
duplicated, built on.
    The purpose of the hearing today is threefold, first, to 
learn about some of the successful programs and partnerships 
that are occurring all over the State so we can expand and just 
build on or duplicate them. The second purpose is to talk about 
how we can improve and expand the collaborations, how we're 
making that happen. And then the third is in keeping with the 
theme here at the convention, ``Barriers to Success'', we need 
to identify those barriers that the Federal Government has put 
in front of success so that we can break through them. What are 
the impediments holding us back? What are the impediments 
holding our kids back?
    I think we recognize that we all have to be working 
together to benefit our kids. Children need to feel like 
they're connected within a classroom. I've been working to deal 
with our Federal laws that, quite honestly, sometimes don't 
allow for that connection, if you will, dealing with Federal 
laws to allow our elders to teach Native language, culture, and 
history in our schools, working to improve on the Alaska Native 
Education Equity Program. Gloria was able to focus in on that 
in the dialogue upstairs. And, again, I've indicated that I 
think we've got a lot of room to grow in this area. How we're 
building, how we're working on that to improve it is going to 
be key.
    I've also been working to give Native language immersion 
programs greater flexibility. I've been working to help the 
U.S. Department of Education understand Alaska and the needs of 
our Alaska Native students better. I'm also working with NCAI, 
which is the National Conference of American Indians, and the 
National Indian Education Association on some specific 
proposals that they have been building to more meaningfully 
involve tribes and our Native organizations in many aspects of 
what we know as No Child Left Behind. But there's so much more 
that we have to do.
    We know the statistics. We'll probably hear some of those 
repeated here this afternoon. We're dealing with low academic 
proficiency in areas, high achievement gaps, low graduation 
rates. And while we clearly have to identify the problems in 
order to fix them, I think we are eager--I am certainly eager 
to focus on how we can build on what the success stories are 
out there, the positive stories that we know.
    According to data from the State Department of Education, 
there are school districts in all regions of the State where 
we're seeing rising graduation rates and achievement gaps are 
closing. And this brings me to just one final point before we 
move to our participants here, and that is a concept that I 
know many in the room and outside the room have thought about. 
That is the difference between student achievement and student 
success.
    I think what we're really striving for here, what we're 
hoping for, is this broader term, which is student success. 
That includes academic achievement, but it's so much broader 
than just the academics. It includes the knowledge to have 
preparedness, to be prepared for the future, contribute to the 
community and the State. It includes being a responsible, 
caring person, who has a self-discipline and focus to reach 
goals.
    It means having a positive connection to the community and 
to the schools, and it also means being able to be a 
contributing member of society and a positive role model to 
others. So I'd like to think that we can focus on the well-
rounded kind of student success today, rather than defining it 
in this narrow form of academic achievement.
    To start off, I will call on each of our witnesses here 
today to just give a short summary. They've all presented us 
with written testimony. I believe that that testimony is 
available for those who would like to see them. I would ask you 
to try to keep your comments to 2 to 5 minutes, but we've got 
room on the tape to go longer if we need to. After that, we'll 
open it up to a roundtable discussion among the witnesses. And 
I have asked them to be prepared to respond to a couple of key 
questions.
    So with that, why don't we begin with you, Chris, on the 
end. And let me just make sure that everyone knows who we have 
up here in the panel. I apologize. I would love to have more, 
but our format in the Senate, as an official hearing of the 
HELP Committee, a field hearing, we are limited to the number 
of witnesses. And we do have an opportunity to leave the record 
open for other input and would welcome you for that.
    But those that are before you this afternoon are Chris 
Simon. He is the rural education coordinator with the Alaska 
Department of Education and Early Development. Next to Chris is 
Peggy Cowan. Peggy is the superintendent of the North Slope 
Borough School District. And next to her is Rosita Worl, who is 
president of the Sealaska Heritage Institute. To my left here 
is Doreen Brown, who is the supervisor of Title VII Education 
in the Anchorage School District. Next to her is Carl Rose, who 
is executive director, Association of Alaska School Boards. And 
then, finally, we have Sonta Hamilton Roach, who is a teacher 
at Innoko River School out in Shageluk, which is in the 
Iditarod School District.
    So welcome to each of you.
    And with that, Chris, why don't you kick off with your 
comments, and we'll just go straight on down the line. Thank 
you and welcome.

 STATEMENT OF CHRISTOPHER SIMON, RURAL EDUCATION COORDINATOR, 
 ALASKA DEPARTMENT OF EDUCATION AND EARLY DEVELOPMENT, JUNEAU, 
                               AK

    Mr. Simon. Thank you, Senator.
    My name is Chris Simon, and I'm the rural education 
coordinator for the Alaska Department of Education and Early 
Development. I spent my entire career working in rural Alaska, 
and it is something I hold close to my heart. My experience 
includes working 2 years as an itinerant school counselor, 4 
years as a teacher, 5 years as a school principal, and 6 years 
as a superintendent of schools.
    I am here today to speak specifically to the statewide 
issue of Alaska Native students' successes and challenges and 
the role the Federal Government can play in building upon the 
successes. The challenges to Alaska Native success are well-
known and longstanding. Alaska's rural districts face a high 
turnover of teachers and principals. In some cases, small rural 
schools cannot offer the range of courses that urban schools 
do. Alaska's villages experience family violence, substance 
abuse, and suicide.
    Yet there are many Native student successes. 
Extracurricular activities create a high sense of community 
pride. In some Alaska schools, rural and urban, 75 percent or 
more of the Native students score proficient on State 
assessments in language arts or math. The Nome School District 
operates a Science Academy. The Alaska Native Science and 
Engineering Program supports students from high school through 
college graduation.
    The University of Alaska enrolls a thousand more Native 
students today than 5 years ago. In the first year of the 
merit-based Alaska Performance Scholarship, 8.3 percent of 
Native high school graduates qualified for the scholarship, and 
36 percent of the qualifiers used the scholarship.
    The Alaska Native Cultural Charter School was named a Title 
I Distinguished School. Mount Edgecumbe High School, a 
predominantly Native-run boarding school, has a 96 percent 4-
year graduation rate. Alaska Student Governments instigated a 
State suicide prevention program that mandates teacher 
training.
    The Federal Government could contribute to Native student 
success by providing Alaska the greatest possible flexibility 
in using Federal funds. In Alaska's Elementary and Secondary 
Education Act waiver application, the State would assist 
schools primarily on the academic achievement and growth of 
students, attendance, and graduation. As needed, the State 
system of support would provide schools with teacher mentors, 
administrator coaches, content coaches, professional 
development, and an online self-improvement tool.
    Alaska is a strong, local-controlled State. The State 
government has increased its commitment to districts with 
funding to build rural schools, work cooperatively with the 40 
lowest achieving schools, fund career and technical education 
improvements, provide scholarships for college and technical 
schools, and fund distance courses by highly qualified Alaska 
teachers. Alaska and its districts should be free to focus on 
curriculum, assessment, instruction, support of learning 
environment, professional development, and leadership. Those 
are the paths to student success.
    Thank you.
    [The prepared statement of Mr. Simon follows:]
                   Prepared Statement of Chris Simon
                                summary
    My name is Chris Simon and I am the Rural Education Coordinator for 
the Alaska Department of Education & Early Development. I spent my 
entire career working in rural Alaska and it is something I hold close 
to my heart. My experience includes working 2 years as an itinerant 
school counselor, 4 years as a teacher, 5 years as a school principal, 
and 6 years as a superintendent of schools. I am here today to speak 
specifically to the statewide issues of Alaska Native student successes 
and challenges and the role the Federal Government can play in building 
upon the successes.
    The challenges to Alaska Native success are well-known and long-
standing. Alaska's rural districts face a high turnover of teachers and 
principals. In some cases, small rural schools cannot offer the range 
of courses that urban schools do. Alaska's villages experience family 
violence, substance abuse, and suicide.
    Yet there are many Native student successes. Schools' extra-
curricular activities create a high sense of community pride. In some 
Alaska schools, rural and urban, 75 percent or more of the Native 
students score proficient on State assessments in language arts or 
math. The Nome School District operates a science academy. The Alaska 
Native Science and Engineering Program supports students from high 
school through college graduation. The University of Alaska enrolls a 
thousand more Native students today than 5 years ago. In the first year 
of the merit-based Alaska Performance Scholarship, 8.3 percent of 
Native high school graduates qualified for the scholarship, and 36 
percent of the qualifiers used the scholarship.
    The Alaska Native Cultural Charter School was named a Title I 
Distinguished School. Mt. Edgecumbe High School, a predominantly Native 
State-run boarding school, has a 96 percent 4-year graduation rate. 
Alaska's student governments instigated a State suicide-prevention 
program that mandates teacher training.
    The Federal Government could contribute to Native student success 
by providing Alaska the greatest possible flexibility in using Federal 
funds. In Alaska's Elementary and Secondary Education Act waiver 
application, the State would assess schools primarily on the academic 
achievement and growth of students; attendance; and graduation. As 
needed, the State System of Support would provide schools with teacher 
mentors, administrator coaches, content coaches, professional 
development, and an online self-improvement tool.
    Alaska is a strongly local-control State. The State government has 
increased its commitment to districts with funding to build rural 
schools; work cooperatively with the 40 lowest-achieving schools; fund 
career and technical education improvements; provide scholarships for 
college and technical schools; and fund distance courses by highly 
qualified Alaska teachers.
    Alaska and its districts should be free to focus on curriculum, 
assessment, instruction, supportive learning environment, professional 
development, and leadership. Those are the paths to student success.
                                 ______
                                 
    My name is Chris Simon and I am the Rural Education Coordinator for 
the Alaska Department of Education & Early Development. I spent my 
entire career working in rural Alaska and it is something I hold close 
to my heart. My experience includes working 2 years as an itinerant 
school counselor, 4 years as a teacher, 5 years as a school principal, 
and 6 years as a superintendent of schools.
    I am here today to speak specifically to the statewide issues of 
Alaska Native student successes and challenges and the role the Federal 
Government can play in building upon the successes.
    The challenges to Alaska Native success are well-known and long-
standing. Alaska's rural districts face a high turnover of teachers and 
principals. Many new teachers are not familiar with Native culture or 
rural lifestyles. In some cases, small rural schools cannot offer the 
range of courses that urban schools do. Alaska's villages experience 
family violence, substance abuse, and suicide. Native families do not 
always know how to navigate the system of formal education, advocate 
for their children, or plan for postsecondary education and training.
    Yet there are many Native student successes. Schools' extra-
curricular activities create a high sense of community pride. In some 
Alaska schools, rural and urban, 75 percent or more of the Native 
students score proficient on State assessments in language arts or 
math.
    Here are a few examples from last school year's results: In Tanana 
Middle School, 90 percent of Native students were proficient in 
language arts. In the James C. Isabell School in the Bering Strait 
School District, 78 percent of Native students were proficient in 
language arts and 75 percent in math. In the Sand Point School in the 
Aleutians East Borough, 88 percent of Native students were proficient 
in language arts and 70 percent in math. In the Goldenview Middle 
School in Anchorage, 74 percent of Native students were proficient in 
language arts and 79 percent in math.
    School districts have developed programs and schools to address 
students' needs. The Nome School District operates a science academy. 
Galena runs a boarding school with academic and career courses. 
Advocates in Fairbanks established the Native-oriented Effie Kokrine 
Charter School. School districts offer 32 distance programs, serving 
home-school students, alternative students, and brick-and-mortar 
students who need additional courses.
    At the Northwest Alaska Career and Technical Center in Nome, a 
partnership of the Bering Strait and Nome school districts, students 
outside of Nome live on campus. In intensive sessions throughout the 
school year, students receive independent living skills as well as the 
skills they need to acquire jobs or to go on to further training and 
education. Students have the opportunity to receive dual credit with 
the University of Alaska. The program motivates students to finish high 
school, formulate career goals, and develop the skills they need for 
the world of work.
    The School to Apprenticeship Program of the Department of Labor and 
Workforce Development works cooperatively with employers, unions and 
school districts. Students choose a career pathway that provides direct 
entry into a formal apprenticeship program. Apprenticeships provide a 
reason for students to stay in school, take relevant courses and 
graduate. Apprentices can earn credits through the University of Alaska 
System toward a degree.
    The Alaska Native Cultural Charter School was named a Title I 
Distinguished School. Mt. Edgecumbe High School, a predominantly Native 
State-run boarding school, had a 96 percent 4-year graduation rate last 
school year. Alaska's student governments instigated a State suicide-
prevention program that mandates teacher training.
    The Alaska Native Science and Engineering Program supports students 
from high school through college graduation. The University of Alaska 
enrolls a thousand more Native students today than 5 years ago. In the 
first year of the merit-based Alaska Performance Scholarship, 8.3 
percent of Native high school graduates were eligible for the 
scholarship, and 36.1 percent of the eligible Native students used 
their scholarship.
    The Federal Government could contribute to Native student success 
by providing Alaska the greatest possible flexibility in using Federal 
funds. In Alaska's Elementary and Secondary Education Act waiver 
application, the State would assess schools primarily on the academic 
achievement and growth of students; attendance; and graduation. As 
needed, the State System of Support would provide schools with teacher 
mentors, administrator coaches, content coaches, professional 
development, and an online self-improvement tool.
    Alaska is a strongly local-control State. The State government has 
increased its commitment to districts with funding to build rural 
schools; working cooperatively with the 40 lowest-achieving schools; 
funding career and technical education improvements; funding pilot pre-
kindergarten programs; providing scholarships for college and technical 
schools; and funding distance courses by highly qualified Alaska 
teachers.
    Alaska and its districts should be free to focus on curriculum, 
assessment, instruction, supportive learning environment, professional 
development, and leadership. Those are the paths to student success.
    Alaska and its school districts have demonstrated they can work 
together:
     resolved litigation over funding of rural school construction
    Alaska resolved the long-standing Kasayulie litigation and 
committed to fund the five highest-priority rural school construction 
projects over the coming years. Alaska has kept that pledge this year 
by funding school construction in Emmonak and Koliganek for $61 
million. See http://www.alaskadispatch.com/sites/default/files/
Kasayulie%20settlement.pdf.
      resolved litigation over academic adequacy in rural schools
    The settlement of the Moore lawsuit is funded at $18 million over 3 
years. It creates a mechanism by which the State and rural school 
districts cooperate closely and combine their funds to improve student 
achievement, implement early education, retain teachers, and help 
students pass the graduation exam.
    The settlement maintains the Alaska principle of local control 
while meeting the State's constitutional responsibility to provide 
assistance to, and oversight of, struggling schools. It is a step 
forward in the quality of Alaska's schools. See http://
education.alaska.gov/news/releases/2012/moore_settlement_signed.pdf.
 established merit-based scholarship for technical and college programs
    Another step forward has been the Alaska Performance Scholarship. 
Students who complete a rigorous high school curriculum and achieve 
qualifying grade point averages and test scores are eligible for 
scholarships worth up to $4,755 a year for college or technical 
education.
    In its first year, the scholarship provided nearly $3 million to 
870 Alaskans from the high school Class of 2011. The State recently 
established a sustainable fund for this merit-based scholarship and for 
needs-based postsecondary grants.
    The second high school graduating class has now received its Alaska 
Performance Scholarships. The Class of 2012 faced more rigorous course 
requirements than did the Class of 2011, but a greater percentage of 
the 2012 graduates earned the highest levels of scholarship. That tells 
us that students and schools are rising to accept the scholarship's 
invitation to excellence. See www.aps.alaska.gov.
         established distance courses for high school students
    To help schools offer the required courses for the Alaska 
Performance Scholarship, especially in rural Alaska, the State and 
school districts operate Alaska's Learning Network, in which high 
school courses are taught by distance by highly qualified Alaska 
teachers. This fall, the learning network is offering 42 courses. See 
http://aklearn.net/. The program also has created Alaska's Digital 
Sandbox, an online repository of free resources developed by Alaska 
teachers for K-12 teachers. See http://www.alaskadigitalsandbox.org.
    Distance education is highly dependent on reliable access to 
broadband service, yet many rural Alaska communities have only the most 
basic broadband access. Recent initiatives by the Federal Communication 
Commission to reform the universal Services Fund appear to lessen 
Federal support for improvements to broadband access in rural Alaska. 
The State of Alaska continues to monitor these reforms and will 
highlight threats to distance education as they arise.
       continued mentoring of teachers and coaching of principals
    The State is continuing programs that serve rural Alaska with 
trained mentors for several hundred new teachers a year and coaches for 
dozens of new principals.
    The Alaska Statewide Mentoring Project, funded by Alaska Department 
of Education & Early Development and the University of Alaska, has 
flourished for 8 school years. It matches veteran teachers who are 
trained mentors with teachers in the first 2 years of their career. The 
goals are to increase teacher retention and improve student 
achievement. The project encourages beginning teachers to be reflective 
and responsive to the diverse cultural backgrounds and academic needs 
of all of their students.
    Mentors observe and coach the new teacher, serve as trusted 
listeners and sounding boards, assist with planning, help with 
classroom management strategies, teach demonstration lessons, provide 
supplemental resources that support the district's curriculum, and 
facilitate communication with the school and its community. See http://
alaskamentorproject.org//.
    The Alaska Administrator Coaching Program's purpose is to 
positively influence student achievement and increase principal 
retention. It has existed for 7 school years, serving approximately 80 
principals a year.
    Coaches work with new principals for 2 years, which includes three 
professional development institutes a year, covering topics such as 
instructional literacy, teacher observation, supervision and evaluation 
of staff, organizational literacy, teacher collaboration, assessment 
literacy, school improvement planning, and classroom assessment 
practices. See http://aacp.pbworks.com/.
               emphasized culturally responsive teachers
    The State Board of Education & Early Development now requires 
beginning teachers to be prepared as culturally responsive teachers, 
and requires all teachers to know Alaska's standards for culturally 
responsive schools. The State, working with Native educators, recently 
completed the first guide to implementing Alaska's cultural standards 
for educators. See http://education.alaska.gov/standards/pdf/
cultural_standards.pdf.
           raised standards for language arts and mathematics
    In an effort to spur greater student achievement, after 2 years of 
collaboration across the State, Alaska has adopted its own new 
standards in English and mathematics. They are the State's first 
standards to extend from kindergarten through grade 12, and they are 
the first to address the need for students to be ready for careers and 
further education after high school. See http://education.alaska.gov/
tls/assessment/GLEHome.html.
          sought a waiver from aspects of no child left behind
    Alaska has applied to the Federal Government to be released from 
the most unproductive and unpopular aspects of the No Child Left Behind 
Act. In its place, if the State receives a waiver, we will implement a 
school accountability system by Alaskans and for Alaskans. Our proposed 
system emphasizes local responsibility and levels of State assistance, 
depending on the needs of schools. The Federal Government has set some 
conditions for States' waivers, but a waiver would be a step forward 
from No Child Left Behind. See http://education.alaska.gov/nclb/
esea.html.
          strengthened the state system of support for schools
    The Alaska Department of Education & Early Development created, and 
is continually strengthening, a system to support struggling schools 
and districts to improve instructional practices and increase student 
achievement.
    With funding from the legislature and a legislative mandate to help 
turn around schools and districts that need improvement, the department 
created the State System of Support (SSOS), housed in the 
commissioner's office.
    The State System of Support helps districts build their capacity to 
improve student achievement through the domains of curriculum, 
assessment, instruction, supportive learning environment, professional 
development, and leadership.
    Alaska STEPP is a web-based system that guides districts' 
improvement teams through a continuous cycle of assessment, planning, 
implementation, and progress tracking. The tool focuses on an honest 
assessment of a district's strengths and challenges, and on actions to 
sustain strengths and address challenges. STEPP stands for ``steps 
toward educational progress and partnership.'' See http://
www.eed.state.ak.us/nclb/SchoolImprovement.html.
            proposed regulations to improve teacher quality
    Educators from school districts, the university and the department 
have developed regulations to improve teacher quality in Alaska, to 
include: a stronger link between the needs of districts and teacher 
preparation programs; improving standards for teachers and methods of 
evaluating teachers; more paths to certification; tying certificate 
renewals to student achievement; and improving our mentoring program 
for new teachers. Some of these regulations are now out for public 
comment. See http://education.alaska.gov/regs/comment/4_AAC_04.pdf.
   developed and fund the alaska career and technical education plan
    The Alaska Department of Education & Early Development, the 
University of Alaska, the Alaska Department of Labor and Workforce 
Development, and industry have written an action plan to revitalize 
career and technical education, open the shops in Alaska's high 
schools, and integrate career and technical education into the regular 
high schools. EED and DOL&WD are working with the Alaska Workforce 
Investment Board to coordinate the development of career education and 
to support a gas line training program.
    In its first year of implementation, the State awarded 14 grants to 
implement portions of the plan. Examples include training in welding in 
the Bering Strait School District, implementing Personal Learning 
Career Plans for all 9th-graders in the Ketchikan Gateway Borough 
School District, and increasing rural high school students' access to 
health education through distance delivery from the University of 
Alaska. See http://labor.state.ak.us/awib/cte.htm.
        developed a literacy blueprint from birth to graduation
    The Alaska Department of Education & Early Development worked with 
educators to create the Alaska Statewide Literacy Blueprint from Birth 
to Graduation. The blueprint addresses the content and delivery of 
instruction, interventions, assessments, leadership, family and 
community engagement, and professional development. The department 
produced and distributed ``I Am Ready'' brochures for parents of young 
children. See http://education.alaska.gov/blueprint/.
    Additionally, the State established the Alaska Early Childhood 
Coordinating Council. See http://www.hss.state.ak.us/ocs/AECCC/
default.htm.
           developed a voluntary health and safety framework
    The Alaska Department of Education & Early Development collaborated 
with the Alaska PTA and Alaska experts on health, domestic violence, 
safety, nutrition, and physical education to write the Alaska School 
Health and Safety Framework. The document promotes a voluntary system 
of coordinated school health programs.
    Additionally, the State created the multi-agency Alaska State 
Suicide Prevention Plan, which mandates prevention training for high 
school teachers. See http://education.alaska.gov/tls/suicide/.
    In conclusion, Alaska's State agencies and school districts 
recognize there is much work to be done to improve the success of 
Native students. These efforts must be owned by families and 
communities. The closer the decisionmaking process and implementation 
are to them, the greater the chances of success. The Federal 
Government's most useful role is to support the State and districts in 
their initiatives and vision.

    Senator Murkowski. Thank you, Chris.
    Peggy.

 STATEMENT OF PEGGY COWAN, SUPERINTENDENT, NORTH SLOPE BOROUGH 
                  SCHOOL DISTRICT, BARROW, AK

    Ms. Cowan. Senator Murkowski, thank you for inviting me to 
this hearing, and I am honored to represent the North Slope 
Borough School District.
    I am Peggy Cowan, Superintendent of Schools. Ours is a 
district of 8 villages and 11 schools across the Arctic Slope. 
The district is the largest geographical school district. There 
are only 11 States that are larger than the 89,000 square miles 
of our district. In a way, we reflect the great State of Alaska 
that we are part of with vast distances and few people. Our 
student population is 1,850, primarily Inupiaq.
    I am here today to share with you our long-term systemic 
change effort to transform the learning of our students through 
changing the curriculum to acknowledge the geographical and 
cultural context within which they live. To understand our 
current curriculum work, you need to understand the context.
    The first mayor of the North Slope Borough, Eben Hopson, 
stated 40 years ago,

          ``Among our entire international Inupiat community, 
        we of the North Slope have achieved true self-
        government with the formation of the North Slope 
        Borough. We have the greatest opportunity to direct our 
        own destiny. Possibly the greatest significance of home 
        rule is that it enables us to regain control of the 
        education of our children.''

    This vision of home rule and control of education is the 
foundation of the current work in developing a culturally 
relevant curriculum. The home rule is actualized today through 
the local board of education. There are three elements of our 
curriculum work: first, the locally developed Inupiaq Learning 
Framework, which is behind me; then the Alaska State Standards 
and Content Areas; and, finally, Understanding by Design.
    The curriculum process that the district is following is 
called Understanding by Design, a research-based best practice 
in curriculum and instructional design, whose aim is student 
understanding, the ability to make meaning of and transfer 
important learning. Understanding by Design is a mission-driven 
curriculum process. The teachers and staff of the district are 
accountable to the same national requirements of adequate 
yearly progress and the State requirements of standards-based 
assessments, but are also accountable to the local board of 
education for the mission, which is: Learning in our schools is 
rooted in the values, history, and language of the Inupiat.
    Students develop the academic and cultural skills and 
knowledge to be: critical and creative thinkers, able to adapt 
in a changing environment and world; active responsible 
contributing members of their communities; and confident, 
healthy young adults able to envision, plan, and take control 
of their destinies. The curriculum work actualizes that 
mission. The knowledge and skills of the Inupiat knowledge 
systems are articulated through the Inupiaq Learning Framework, 
the foundation of the curriculum.
    The Inupiaq Learning Framework is the product of multiple 
year process of asking the communities across the slope two 
questions: No. 1, what knowledge needs to be acquired to truly 
live as a healthy Inupiaq? And, No. 2, what does a well-
educated, well-grounded, 18-year-old Inupiaq look like? Our 
director of Inupiaq education visited every community in the 
North Slope and brought the feedback of these questions to a 
group of community members from across the slope. The 
articulation of what the communities envisioned is the Inupiaq 
Learning Framework represented by our blanket of life.
    The Inupiaq Learning Framework is divided into four realms 
of the Inupiaq world, the environmental realm, the community 
realm, historical realm, and individual realm. Within each of 
the realms are core themes. For example, within the historical 
realm are the core themes of stories, North Slope history, and 
modern history.
    The State's content standards determine what to teach in 
the academic areas, and the district developed performance 
expectations for the Inupiaq Learning Framework core themes 
articulate the understandings for the local culture and 
history. Both the entire curriculum and classroom instructions 
are developed collaboratively by school district staff 
combining these two elements into the units that are rigorous, 
academically and culturally relevant.
    Examples of these elements are substituting in lessons 
stories of local elders for lessons in language arts textbooks, 
middle school science labs on density where students measure 
the difference when putting whale meat or whale fat in a beaker 
of water, an algebra I lesson of using a formula for a body 
going up and down on a blanket toss, or an algebra II lesson 
using the arch trajectory of a harpoon.
    The district is starting year 3 of a 5-year plan to 
transform the curriculum. Many staff have contributed, but the 
two lead individuals have been Lisa Parady, assistant 
superintendent, who has led it from the start, and Jana 
Harcharek, who has given voice and shape to the Inupiat 
Learning Framework. I am grateful to them and the district. The 
district must stay the course and continue the process to 
provide our students with a foundation that fits both the 
Inupiaq and western worlds.
    Thank you.
    [The prepared statement of Ms. Cowan follows:]
                   Prepared Statement of Peggy Cowan
                                summary
                               background
    To understand our curriculum work, you need to understand our 
context. The first Mayor of the North Slope Borough, Eben Hopson, 
stated 40 years ago,

          ``Among our entire international Inupiat community, we of the 
        North Slope are the only Inupiaq who have achieved true self-
        government with the formation of the North Slope Borough. We 
        have the greatest opportunity to direct our own destiny. . . . 
        Possibly the greatest significance of home rule is that it 
        enables us to regain control of the education of our 
        children.''

    This vision of home rule and control of education is the foundation 
of the current work in developing a culturally relevant curriculum. The 
home rule is actualized today through the North Slope Borough School 
District Board of Education.
       curriculum alignment integration and mapping in the nsbsd
    There are three elements of our curriculum work, the locally 
developed Inupiaq Learning Framework, the Alaska State Standards in 
Content Areas and Understanding by Design. The curriculum process that 
the district is following is called Understanding by Design (UbD), a 
research-based best practice in curriculum and instructional design. In 
UbD the educational aim is student understanding--the ability to make 
meaning of and transfer important learning. Understanding by Design is 
a mission-driven curriculum process. The teachers and staff of the 
district are accountable to the same national requirements of Adequate 
Yearly Progress and the State requirements of Standards-Based 
Assessments, but are accountable to the NSBSD Board of Education for 
the mission, which is, ``Learning in our schools is rooted in the 
values, history and language of the Inupiat. Students develop the 
academic and cultural skills and knowledge to be:

    <bullet> Critical and creative thinkers able to adapt in a changing 
environment and world;
    <bullet> Active, responsible, contributing members of their 
communities; and
    <bullet> Confident, healthy young adults, able to envision, plan 
and take control of their destiny.''

    The curriculum work actualizes that mission. The knowledge and 
skills of the Inupiaq knowledge systems are articulated through the 
Inupiaq Learning Framework, the foundation of the curriculum. The 
Inupiaq Learning Framework is the product of a multiple year process of 
asking the community two questions:

    ``What knowledge needs to be acquired to truly live as a healthy 
Inupiaq?
    What does a well-educated, well-grounded 18-year-old Inupiaq look 
like?''

    Jana Harcharek, director of Inupiaq Education visited every 
community in the North Slope Borough and brought the community feedback 
on these questions to a group of community members. The articulation of 
what the communities envisioned is the Inupiaq Learning Framework 
represented by Mapkuqput Inuuniagnigmi--Our Blanket of Life. The 
Inupiaq Learning Framework is divided into four realms of the Inupiaq 
world, the Environmental Realm, Community Realm, Historical Realm and 
Individual Realm. Within each of the realms are Core Themes. For 
example, within the Historical Realm are Core Themes of Unipkaat, 
Quliaqtuat, Uqalukutuat (which are legend/old stories, one's life 
experience and true story), North Slope History and Modern History.
    The State's content area standards determine what to teach in the 
academic areas and district developed performance expectations for each 
of the Inupiaq Learning Framework Core Themes articulate the 
understandings for the local culture and history. Both the entire 
curriculum and classroom instruction are developed collaboratively by 
school district staff combining these two elements into units that are 
rigorous academically and culturally relevant. Examples of these 
lessons are substituting stories of local Elders for lessons in 
language arts textbooks; middle school science labs on density where 
students measure the difference when putting whale meat or whale fat in 
a beaker of water; an algebra I lesson using a formula for a body going 
up and down on a blanket toss; or an algebra II lesson using the arched 
trajectory of a harpoon.
    The district is starting year 3 of a 5-year plan to transform the 
curriculum. The district must stay the course and continue the process 
to provide our students with a foundation that fits both the Inupiaq 
and Western worlds.
    Thank you. Quyanak.
                                 ______
                                 
                              introduction
    Thank you for inviting me to this hearing. I am honored to be here 
today and to represent the North Slope Borough School District (NSBSD). 
I am Peggy Cowan superintendent of schools. The North Slope Borough 
School District is a district of 8 villages and 11 schools across the 
arctic slope of Alaska. The district is the largest geographical school 
district. There are only 11 States that are larger than the 89,000 
square miles of our district. In a way we reflect the great State that 
we are part of, with vast distances and few people, our student 
population is 1,850 preschool through twelfth grade, primarily Inupiaq.
    I am here today to share with you our long-term, systemic change 
effort to transform the learning of the students through changing the 
curriculum to acknowledge the geographical and cultural context within 
which they live.
                               background
    To understand our curriculum work, you need to understand our 
context. Our district exists because the Borough was founded 40 years 
ago so that the people of the arctic slope of Alaska could direct their 
own destiny. The first Mayor of the North Slope Borough, Eben Hopson, 
stated at that time,

          ``Among our entire international Inupiat community, we of the 
        North Slope are the only Inupiaq who have achieved true self-
        government with the formation of the North Slope Borough. We 
        have the greatest opportunity to direct our own destiny as we 
        have for the past millennia. Possibly the greatest significance 
        of home rule is that it enables us to regain control of the 
        education of our children.''

    This vision of home rule and control of education is the foundation 
of the current work in developing a culturally relevant curriculum. The 
home rule is actualized today through the North Slope Borough School 
District Board of Education. The curriculum revision is part of the 
Board developed and adopted strategic plan for the district and enables 
the district to meet the mission.
       curriculum alignment integration and mapping in the nsbsd
    There are three elements of our curriculum work, the locally 
developed Inupiaq Learning Framework, the Alaska State Standards in 
Content Areas and the Understanding by Design Curriculum Framework. The 
curriculum process that the district is following is called 
Understanding by Design (UbD), a research-based best practice in 
curriculum and instructional design. In UbD the educational aim is 
student understanding--the ability to make meaning of and transfer 
important learning. Understanding by Design is a mission-driven 
curriculum process. The teachers and staff of the district are 
accountable to the same national requirements of Adequate Yearly 
Progress and the State requirements of Standards-Based Assessments, but 
are accountable to the NSBSD Board of Education for the mission, which 
is,

    ``Learning in our schools is rooted in the values, history and 
language of the Inupiat. Students develop the academic and cultural 
skills and knowledge to be:

    <bullet> Critical and creative thinkers able to adapt in a changing 
environment and world;
    <bullet> Active, responsible, contributing members of their 
communities; and
    <bullet> Confident, healthy young adults, able to envision, plan 
and take control of their destiny.''

    The curriculum work actualizes that mission and the Board's 
strategic plan first goal, ``All students will reach their intellectual 
potential and achieve academic success through integrating Inupiaq 
knowledge systems into core content areas.''
    The knowledge and skills of the Inupiaq knowledge systems are 
articulated through the Inupiaq Learning Framework, the foundation of 
the curriculum. The Inupiaq Learning Framework is the product of a 
multiple year process of asking the community two questions:

    ``What knowledge needs to be acquired to truly live as a healthy 
Inupiaq?
    What does a well-educated, well-grounded 18-year-old Inupiaq look 
like? ''

    Jana Harcharek, director of Inupiaq Education visited every 
community in the North Slope Borough and brought the community feedback 
on these questions to a group of community members from across the 
slope called Ilinniagnikun Apquisiuqtit, ``People who break trail for 
learning.'' The articulation of what the communities envisioned is the 
Inupiaq Learning Framework represented by Mapkuqput Inuuniagnigmi--Our 
Blanket of Life. The blanket represents our learning framework, it is 
bond together by spirituality and language. The Inupiaq Learning 
Framework is divided into four realms of the Inupiaq world, the 
Environmental Realm, Community Realm, Historical Realm and Individual 
Realm. Within each of the realms are Core Themes. For example, within 
the Historical Realm are Core Themes of Unipkaat, Quliaqtuat, 
Uqalukutuat (which are legend/old stories, one's life experience and 
true story), North Slope History and Modern History.
    The State's content area standards determine what to teach in the 
academic areas and district developed performance expectations for each 
of the Inupiaq Learning Framework Core Themes articulate the 
understandings for the local culture and history. Both the entire 
curriculum and classroom instruction are developed collaboratively by 
school district staff combining these two elements into units that are 
rigorous academically and culturally relevant. Examples of these 
lessons are substituting stories of local Elders for lessons in 
language arts textbooks; middle school science labs on density where 
students measure the difference when putting whale meat or whale fat in 
a beaker of water; an algebra I lesson using a formula for a body going 
up and down on a blanket toss; or an algebra II lesson using the arched 
trajectory of a harpoon.
    Just as the root of the work is in the community's vision for 
education, we return to the communities for feedback. Each content area 
curriculum committee will bring their work to a Steering Committee of 
local people to review and provide feedback to let the staff know if we 
are meeting their vision.
    The district is starting year 3 of a 5-year plan to transform the 
curriculum. Many NSBSD staff have contributed to this effort, but three 
individuals have led the process. Lisa Parady, assistant 
superintendent, conceived the curriculum process and has led it from 
the start, Jana Harcharek has given voice and shape to the ILF. Jay 
McTighe has used his groundbreaking Understanding by Design process to 
train our team. As Superintendent, it has been especially gratifying to 
support the whole, to have the entire structure bear the fruit of 
systemic change, that lasts and truly begins to align and integrate the 
Inupiaq culture and western academics. The district must stay the 
course and continue the process to provide our students with a 
foundation that fits both the Inupiaq and Western worlds.
    Thank you. Quyanak.

    Senator Murkowski. Thank you, Peggy.
    Rosita.

 STATEMENT OF ROSITA WORL, Ph.D., PRESIDENT, SEALASKA HERITAGE 
                     INSTITUTE, JUNEAU, AK

    Dr. Worl. Senator Murkowski, thank you for holding this 
hearing on a subject of vital concern to the Native community. 
May I also express the gratitude of the Native community--and I 
think that I can do that as a board member of the Alaska 
Federation of Natives--our deepest gratitude to you for your 
staunch advocacy and support for Alaska Native education.
    In honor of my ancestors and in respect to this committee, 
I am privileged to tell you who I am. I am also hopeful that we 
might use it as a lesson as to why it is so important to have 
Alaska Natives involved in education. My Tlingit names are 
Yeideilats'ok and Kaahani. I am of the Thunderbird Clan and the 
Eagle moiety. I am from the House Lowered From the Sun, and I 
am a child of a Sockeye Clan.
    This is my Tlingit identity, and I will tell you that it 
took years and years for me to be able to resolve my Tlingit 
identity with who I am in this modern society. That is a 
conflict that many of our children continue to experience.
    I shared this traditional identity with you to offer you a 
glimpse into our world, our relationship to the land and to the 
environment, and also the complexity of our culture. It is just 
a simple measure to illustrate the complexity and the vast 
differences between our societies. The essence of our being in 
our Native world view is rarely taught in school. We do not see 
our Native self in our schools. We do not even see Native 
people in the curriculum, in the photos that our children see. 
And I think just that alone demonstrates why we need to work to 
change that, to ensure that we can be engaged in education.
    At the Sealaska Heritage Institute, our thesis has been to 
integrate language and culture into all of our programs. And in 
all of the programs that we administer through education--and 
we run a number of education programs--we have found that our 
children do better academically when language and culture are 
integrated in the schools.
    In 2000, the Sealaska Heritage Institute partnered with the 
Juneau School District, and the result of that was systemic 
change. We funded the program through an ANEP program for the 
first year. The school district took it up, and then this year, 
they funded that program. So this is a classic example of 
systemic change where the Juneau School District saw the 
benefit of having language and culture in the program and 
continued to fund that.
    In the 10 years since we started that program, what we have 
found--and we did a longitudinal study. We found that our 
children did better academically. And the number that I'd like 
to report just for the record now is--and it is contained in 
our report--is that in contrast to the 50 percent graduation 
rate we have of Alaska Native students from schools, we had in 
this program over 70 percent of our students who came through 
the class. In all those classes where they were taught Tlingit 
language and culture, they had a more than 70 percent 
graduation rate.
    The important thing for us here is that Alaska Natives need 
to be involved in education. And the Federal funding that we 
have been receiving from the ANEP program and, hopefully, from 
others that we are pursuing will allow Alaska Native 
organizations to be at the table. We want to have a meaningful 
role in education, and we think that having the funds go 
directly to the Native organizations and then developing the 
partnerships with the university and the school districts 
really gives us the leverage to have a meaningful role in our 
education.
    In the Sealaska Heritage Institute, we have signed MOEs 
with the university and with the Juneau School District. For 
the very first time, we are sitting at the table as new 
teachers are being interviewed. I don't know how the union 
feels about that, but we are there. And I think what we are 
able to show is to really bring our knowledge to the table and 
what we think is good for not only Native students but other 
students. So I think these educational programs really allow us 
to be at the table.
    But the point that I want to stress is that it must be the 
Native organization that has the lead in receiving these funds. 
We think that it's a true measure of self-determination, and we 
want to be engaged in the education of our children.
    [The prepared statement of Ms. Worl follows:]
            Prepared Statement of Rosita Kaahani Worl, Ph.D.
                                summary
    The purpose of the hearing will be to learn what efforts by Alaska 
Native organizations to improve the educational outcomes of Alaska 
Native children and youth are working, what challenges remain, and the 
role of the Federal Government in helping to build on success.
                    efforts by native organizations
    <bullet> Focusing on Native educational achievement.
    <bullet> Integrating language and cultural restoration in school as 
a means to improve academic achievement of Native students.
    <bullet> Monitoring progress of Alaska Native education and Federal 
funding for Native education and language.
    <bullet> Promoting systemic change in educational systems to 
address Native educational needs.
        <bullet> Specific Actions:

          Teacher training and employment in school districts.
          Curriculum Development.
          Professional Development.
          Partnerships with school districts and Alaska's university 
        system.
          Summer Academies and programs.
          Federal and State funding for Native education.

    <bullet> Case Study of Native Education in Juneau
                               challenges
    <bullet> Positive Native identities.
    <bullet> Cross cultural training and understanding.
    <bullet> Increasing number of Native teachers and administrators 
and their employment in schools.
    <bullet> Recognition by schools, government and public that 
integration of indigenous culture and language into schools promotes 
academic achievement.
    <bullet> Funding to support Alaska Native organizational 
participation in educational efforts.
                     the role of federal government
    <bullet> Advocacy, support and funding for Native educational and 
language programs.
    <bullet> Support research efforts to understand barriers to Native 
academic success.
    <bullet> Fund Alaska Native organization to become full partners in 
educational efforts.
                                 ______
                                 
    Gunulcheesh, Aanshaawatk'i, Deisheetaan, Yeil, Angoon Kwaan

    Senator Murkowski, thank you for holding this hearing on a subject 
of vital concern to the Native community. May I also express the 
gratitude of the Native community for your staunch advocacy and support 
of Alaska Native education.
    In honor of my ancestors and in respect to this committee, I am 
privileged to tell you who I am:

        Lingit x'einax Yeideiklats'ok ka Kaahani ax saayi.

        Shangukeidi ka Chaak' naa xat sitee.

        Kawdliyaayi Hit aya xat.

        Lukaax.adi yadi aya xat.

My Tlingit names are Yedeilats'ok and Kaahani

        I am of the Thunderbird Clan and the Eagle Moiety.

        I am from the House Lowered from the Sun of Klukwan.

        I am a Child of the Sockeye Clan.

    My English name is Rosita Worl, and I serve as president of the 
Sealaska Heritage Institute (SHI), whose mission is to perpetuate and 
enhance the cultures of the Tlingit, Haida, and Tsimshians and to 
promote cross-cultural understanding and cultural diversity.
    My Tlingit names, clan and house are the basis of my social 
identity and cultural values. They establish a bond between me and my 
ancestors, and they create a responsibility to our future generations.
    I shared my traditional identity to offer you a glimpse into our 
world, our relationship to our land and environment and the complexity 
of our culture. It is also a simple measure to illustrate the 
differences that exist between the Native and non-Native society. The 
essence of our being and our Native world view are rarely taught in 
schools or understood by educators.
    One of our institutional goals has been to ensure that our children 
have the opportunity to develop a positive identity around their 
cultural heritage and legal status as Native Americans and Alaska 
Natives. Although seemingly simple, a basic premise we hold is that a 
``positive identity'' contributes to one's well-being and academic 
achievement. This knowledge of self and one's heritage and history have 
been historically denied to Native students. Today we are trying to 
resolve the many social and educational dilemmas afflicting past and 
current generations caused in part by undervaluing our Native identity, 
self, and heritage.
    I previously submitted a summary responding to the three questions 
that you had posed, which is also included here in my written 
testimony. I would like to briefly review the success of Native 
students who participated in Alaska Native Education Program (ANEP) 
funded programs in Juneau school and summarize my written statement on 
the participation of Alaska Native organizations (ANO) in Native 
educational programs.
  efforts by native organizations to improve the educational outcomes 
                         of alaska native youth
    <bullet> Focusing on Native educational achievement.
    <bullet> Integrating language and cultural restoration in school as 
a means to improve academic achievement of Native students.
    <bullet> Monitoring progress of Alaska Native education and Federal 
funding for Native education and language.
    <bullet>  Promoting systemic change in educational systems to 
address Native educational needs.
        <bullet> Specific Actions:

          Teacher training and employment in school districts;
          Curriculum development;
          Professional development;
          Partnerships with school districts and Alaska's university 
        system;
          Summer academies and programs; and
          Federal and State funding for Native education.
                               challenges
    <bullet> Positive Native identities.
    <bullet> Cross-cultural training and understanding.
    <bullet> Increasing number of Native teachers and administrators 
and their employment in schools.
    <bullet> Recognition by schools, government and public that 
integration of indigenous culture and language into schools promotes 
academic achievement.
    <bullet> Funding to support Alaska Native organizational 
participation in educational efforts.
                     the role of federal government
    <bullet> Advocacy, support and funding for Native educational and 
language programs.
    <bullet> Support research efforts to understand barriers to Native 
academic success.
    <bullet> Fund Alaska Native organization to become full partners in 
educational efforts.
                    shi and native education review
    In 2000 the Sealaska Heritage Institute, in partnership with the 
Juneau School District, launched a pilot program in Harborview 
Elementary School that over the next 10 years would make an 
unprecedented impact on the District. The program was designed to turn 
the tide of low academic performance and family engagement of Alaska 
Natives by creating a place-based, culture-based ``school within a 
school'' where the Tlingit language and culture were integral to daily 
instruction, where they were celebrated and respected. Over the next 10 
years it evolved into the Tlingit Culture, Language and Literacy (TCLL) 
program with support from three consecutive grants awarded by the ANEP 
and the Office of Bilingual Education in the U.S. Department of 
Education. The initial grant was awarded to the SHI. The following two 
grants were awarded directly to the Juneau School District. Although 
SHI was identified as a partner in the school district grants, SHI was 
not involved in the programmatic development nor actually were we aware 
that we were a partner or understood the authorities that came with 
being a partner. Several other Native organizations donated funds to 
the school district to support various aspects of the TCLL Program.
    During the last decade, SHI together with other Juneau-based Native 
organizations developed educational programs, curriculum, supplemental 
material, teacher training programs, cultural workshops and summer 
leadership programs around Native culture and language that were 
primarily funded by ANEP, the Administration for Native Americans and 
other sources of public and private funding.
    We were keenly interested in the overall impact of the Native 
language and culture programs on Native student achievement during the 
last 10 years. We commissioned Dr. Annie Calkins, a former assistant 
superintendent of the Juneau School District, to conduct an evaluation 
of students who participated in the TCLL program. We would like to 
share a few highlights of the draft report that we will make available 
to you upon completion of the final report:

    <bullet> 70 percent of the first group of students (17) enrolled in 
the ANEP-sponsored TCLL graduated from high school in 2012. This is 
double the percentage of Native students in the district who typically 
graduate.
    <bullet> One student, who participated in the TCLL program from 
grades 2-5 was awarded a Gates scholarship and will attend Stanford 
University in 2013.
    <bullet> TCLL students generally do as well or better than their 
Native peers on standardized tests in reading and writing.

    The TCLL program was available to a rather small number of the 
Juneau School District population averaging 25 to 30 students each 
year. We believe the data and success of these students reflect that 
ANOs should have the opportunity to expand and implement this approach 
to a greater number of students and schools. It has nurtured positive 
connections with Native parents, many of whom had negative experiences 
with schools as students, and parents of students.
    The Alaska Native Education Equity, Support and Assistance Act was 
authored by the late and our dear friend, Senator Stevens, to ensure a 
funding stream designed to specifically meet the needs of Alaska Native 
students. His second objective was to ensure that Alaska Native people 
were maximally involved in the planning and management of Alaska Native 
Education programs. Senator Stevens authored the Alaska Native 
Education Equity, Support and Assistance Act in response to these 
disparities, and to create an opportunity for equity in education for 
Alaska Native people. ANEP was designed to address Alaska Native 
students' needs in a threefold way by:

    1. focusing attention on the educational needs of Alaska Native 
students,
    2. investing substantial funding in the creation and operation of 
supplemental educational programs for Alaska Native students, and
    3. maximizing participation of Alaska Native people in the planning 
and management of Alaska Native education programs.

    Tribes elsewhere in the country can utilize Bureau of Indian 
Education (BIE) funding to establish and run their own tribal schools 
and programs. However, Alaska receives no BIE funding, and in Alaska, 
the State is responsible for educating all Alaskans, including Alaska 
Natives.
    Historically, the State's and districts' track records on educating 
Alaska Native students have been poor. As noted above, our data reflect 
that Native students who were able to participate in a Native language 
and culture-based program are doing better than other students. 
However, the overall record for Native academic achievement remains 
dismal as reflected by data extracted from the Alaska State Report 
Card:


--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                      2005      2006      2007      2008      2009      2010      2011
                                   2002  [In         2003  [In        2004  [In        [In       [In       [In       [In       [In       [In       [In
                                   percent]          percent]          percent]     percent]  percent]  percent]  percent]  percent]  percent]  percent]
--------------------------------------------------------------------------------------------------------------------------------------------------------
Alaska Native student          23.3............  23.7............  24.3...........      24.7      25.2      25.1      23.2      22.8      22.8      22.5
 dropouts in grades 7-12, as
 percentage of all Alaska
 Natives.
Alaska Native student          34.5............  39.7............  40.6...........      33.7      36.6      37.8      37.9      37.3      38.3      41.2
 dropouts in grades 7-12, as
 a percentage of total number.
Graduation rate of Alaska      N/A.............  N/A.............  N/A............      43.0      45.0      51.0      48.1      55.4      55.4      50.9
 Native students.
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Direct Native participation in the education of our students is 
possible with funding the ANOs have received, and it serves to improve 
the status of Native education. However, ANOs are increasingly 
concerned that the manner in which the Department of Education is 
implementing the ANEP is paying inadequate attention to the most 
important principle of the authorizing legislation: Equity.
    Senator Murkowski, you, and all members of the Alaska delegation, 
have strongly advocated for the ANEP program in both the authorization 
and appropriations processes. And, may I emphasize again that we are 
especially grateful for your unwavering support for the program over 
the years when it has been attacked as an earmark and/or as duplicative 
of other programs.
    We want to introduce another reason for you to continue your 
support for this program: We believe that putting ANOs in the position 
as lead grantees for ANEP funding will make a marked difference for 
Alaska Native students. From our experience over the last decade we 
have observed that being a lead grantee in an ANEP grant allows ANOs to 
come to the table as an equal partner with larger educational entities 
such as school districts and universities. This equality creates 
fertile ground for systemic change. Unfortunately, since 2005, over 
three-quarters of the funding and three-quarters of the grants have 
been awarded to non-Native entities.

                       Alaska Native Education Equity Act--Award/Funding Analysis 2005-11
----------------------------------------------------------------------------------------------------------------
                                                                                                Percent  Percent
           Organization type                                                                       of       of
                                                                                                 grants   funds
----------------------------------------------------------------------------------------------------------------
Alaska Native Organizations:...........  31 grants.................  $39.3 million............     23.3    21.70
  ANO competitive awards only..........  23 grants.................  $27.3 million............    17.29    17.72
Other Organizations:...................  102 grants................  $114.7 million...........    76.70    78.30
  School districts.....................  50 grants.................  $75.7 million............     37.5     41.9
  Non-profits..........................  30 grants.................  $37.2 million............     22.5    20.60
  Universities.........................  22 grants.................  $28.3 million............    16.50    15.60
----------------------------------------------------------------------------------------------------------------
Sec. 7302(2). It is the policy of the Federal Government to encourage the maximum participation by Alaska
  Natives in the planning and the management of Alaska Native Education programs.
Sec. 7302(7). The Federal Government should lend support to efforts developed by and undertaken within the
  Alaska Native community to improve educational opportunity for all students.

    In our concern for the inequitable allocation of funds, the Alaska 
Federation of Natives passed a resolution (enclosed) last spring urging 
Congress to ensure that grants funded by the Alaska Native Equity 
Program are administered through ANOs and as lead grantees. Our 
analysis of the 2012 grants reveal that ANOs made modest gains with the 
percent of grants and the percent of funds both increasing by 12 
percent.

                      Alaska Native Education Equity Act--Award/Funding Analysis 2012 only
----------------------------------------------------------------------------------------------------------------
                                                                                                Percent  Percent
           Organization type                                                                       of       of
                                                                                                 grants   funds
----------------------------------------------------------------------------------------------------------------
Alaska Native Organizations:...........
  ANOP competitive awards only.........  11 grants.................  $6.17 million............       29       30
Other Organizations:                     27 grants.................
  School districts.....................  15 grants.................  $7.60 million............       39       36
  Non-profits..........................  8 grants..................  $4.80 million............       21       23
  Universities.........................  4 grants..................  $2.28 million............       11       11
----------------------------------------------------------------------------------------------------------------

    Some non-Native organizations, like school districts and 
universities, may argue that funding is being taken away from them. 
Maximizing ANO involvement as lead grantees will simply realign 
implementation of the ANEP program with the original intent of the 
statute: Equity and maximum involvement of ANOs.
    As ANO's, we are concerned that the program is not being adequately 
implemented, particularly in relation to the purpose of maximizing 
Alaska Native participation. In fact, in April 2012, AFN wrote to you 
detailing our concerns about the program. First, the law requires that 
the Department of Education (the Department) prioritize funding to 
Alaska Native regional organizations, but as I have already mentioned, 
the majority of ANEP funding over the last decade was awarded to non-
Alaska Native organizations and entities (including school districts 
and universities).
    The statute provides a clear priority to Alaska Native regional 
nonprofits or consortia that include these organizations. However, this 
priority is being increasingly undermined by other priorities as 
identified by the Department. In the last 2 years, Request for 
Applications (RFA) for the ANEP program gave the same number of points 
to applications from Alaska Native regional nonprofits (ANRO) as it did 
for programmatic priorities identified by the Department. Furthermore, 
the programmatic priorities identified were neither targeted to Alaska 
Native needs, nor relevant goals for supplemental education programs 
focused on outcomes for Alaska Native students. In fact, the priorities 
in the RFA were not even reflective of the priorities listed in the 
statute. In addition to last year's programmatic priorities, this year, 
novice applicants, including non-Native organizations, were given a 
five-point priority. Again, ANROs were given only two points. As a 
result, the statutory priority given to ANROs was subordinated to other 
priorities.
    Current statute allows the Secretary to make grants and enter into 
contracts with non-Native organizations, and at the same time it also 
requires that Local Education Agencies (LEA) and State Education 
Agencies (SEA) apply in consortia with Native organizations. ANOs are 
often enlisted for the value of their imprimaturs, but not considered 
or involved as full partners in the consortia as we reported above. It 
is time for this to change.
    Opponents claim that the ANEP program is duplicative and 
unnecessary. On the contrary, this program is essential and beneficial 
to Native students. The Alaska Native Educational Equity, Support and 
Assistance Act was designed to ensure equity, not duplication. ANEP 
funding can make a significant difference for Alaska Native students, 
in the right circumstances. The right circumstances involve strong, 
equal partnerships between Alaska Native and non-Native organizations 
as required by the statute.
    Congress is likely to tackle reauthorization of the Elementary and 
Secondary Education Act in the new Congress. I urge you to leverage the 
reauthorization process to realign this essential program with the 
original goals of the legislation.
    Educational policy and laws that were once written in order to 
maximize Alaska Native Organizational involvement in education and the 
management thereof are being implemented in such a fashion that 
actually, through the grant-making process, minimizes Alaska Native 
Organizational involvement. We urge you to support efforts that ensure 
ANOs are the lead organizations and that partnerships are partnerships 
of equals. ANOs in the position as lead grantees for ANEP funding will 
make a marked difference for Alaska Native students.
    Alaskan Natives believe in self-determination and want an active 
role in the education of our children. We want to be trusted with the 
future of our own children--educationally, socially, and economically.
    Gunlcheesh.
                               ATTACHMENT
 Alaska Federation of Natives, AFN Board of Directors--Resolution 12-03
TITLE:  TO AMEND ALASKA NATIVE EDUCATION EQUITY ACT AND INCLUDE 
    DIRECTIVE LANGUAGE IN APPROPRIATIONS BILLS SO THAT FUNDING IS 
    ADMINISTERED BY ALASKA NATIVE ORGANIZATIONS IN ORDER TO IMPROVE 
    EDUCATION FOR ALASKA NATIVE YOUTH.

WHEREAS:  The Alaska Native Education Equity Act was enacted by 
    Congress in 2002 and provides approximately $33 million per year in 
    funding for programs across the State that address the needs of 
    Alaska Native students--from early childhood education to secondary 
    school preparation programs; and

WHEREAS:  The Bureau of Indian Education (BIE) does not contribute 
    funds to the education of Alaska Native students;

WHEREAS:  The Alaska Native Education Equity Act authorizes the use of 
    funds under the Act for the development of curriculum and 
    educational programs that reflect and are aligned with the cultural 
    diversity, language and contributions of Alaska Native people and 
    for other supplemental educational programs that support Alaska 
    Native college and career readiness; and

WHEREAS:  The Alaska Native Educational Equity Act states that it is 
    the policy of the Federal Government to encourage maximum 
    participation by Alaska Native people in the planning and 
    management of Alaska Native Education programs; and

WHEREAS:  The Act also authorizes the Department of Education to fund 
    programs under this act administered by Alaska Native 
    Organizations, educational entities and cultural and community-
    based organizations; and

WHEREAS:  Assessments of grant funding reflects the following:

                  <bullet>  Decreasing awards granted to Alaska Native 
        Organizations
                  <bullet>  Increasing awards to school districts, 
        University of Alaska, and other organizations, and
                  <bullet>  Alaska Native Organizations may be 
        identified as ``Partners'' with school districts, University of 
        Alaska, or other organizations, but in actuality have little to 
        no control or oversight of the grant development, 
        implementation, and programs; and

WHEREAS:  School Districts and Universities have access to other 
    funding that Alaska Native Organization are ineligible to apply 
    for; and

WHEREAS:  The Act specifically prioritizes funding for Alaska Native 
    regional nonprofit organizations or consortia that include such 
    Alaska Native organizations; and

WHEREAS:  Native Cultures and Languages have been documented to serve 
    as resilience factors in youth, and inclusion of such content in 
    meaningful ways can support academic success; and

WHEREAS:  Alaska Native corporations, organizations, and tribes 
    throughout the State of Alaska are working to improve Native 
    Education through intentional and strategic programs that utilize 
    culturally relevant curricula; and

WHEREAS:  Over the last 10 years, Alaska Native Organizations have 
    successfully demonstrated that they can provide programs that 
    improve academic performance of Alaska Native students; and

WHEREAS:  Alaska Native Organizations, working in partnerships with 
    Schools, Universities, or other Organizations as the lead can 
    ensure the success of Alaska Native students; and

NOW THEREFORE BE IT RESOLVED the Alaska Federation of Natives supports 
    the continuation of Alaska Native Education Equity Act funding in 
    order to meet the dire needs of Alaska Native students, and urges 
    the delegation to pursue every means possible to amend the House 
    version of the Elementary and Secondary Education Act to ensure 
    inclusion and continuation of the Alaska Native Education Equity 
    Act and sufficient funding in the appropriations and authorization 
    processes; and

BE IT FURTHER RESOLVED that Alaska Federation of Natives further urges 
    Congress to take action to ensure that grants funded by the Alaska 
    Native Equity Program are administered through Alaska Native 
    Organizations and as lead grantees with partners, and that the 
    Department of Education consults with Alaska Native Organizations 
    to identify programmatic priority areas for future funding.

ADOPTED THIS DAY, 22nd
OF FEBRUARY 2012

                                            Julie E. Kitka,
                                                         President.

    Senator Murkowski. Thank you, Rosita.
    Doreen.

  STATEMENT OF DOREEN E. BROWN, SUPERVISOR, TITLE VII INDIAN 
 EDUCATION DEPARTMENT, ANCHORAGE SCHOOL DISTRICT, ANCHORAGE, AK

    Ms. Brown. Thank you, Senator Murkowski, for having me sit 
at the table today and to be able to share information with you 
about our program in the Anchorage School District, or many of 
our programs.
    My name is Doreen Brown. My family is from Aniak, and I'm 
also the proud mother of two children that attend the school 
district now. I am here to discuss the urban education 
experience. I think it's really important. I think sometimes we 
forget that particular conversation and how school districts 
and Native organizations can come together to be more 
synergistic partners in encouraging academic success for our 
students.
    I am the supervisor for Title VII Indian Education that is 
embedded within NCLB. If you ever need some reading material--
it's actually title VII--to go to sleep at night, it's really 
exciting stuff. But it is really important, because it is 
something that our government--is an obligation for them to 
serve our students--one way. That language does need to be 
stronger, I think, and we need to hold our districts' feet to 
the fire to make sure that they're implementing that with 
rigor, with true accountability to our people, and making sure 
our people have a voice with what's being done with those 
funds.
    I stand before you, and I feel like I really do do that. I 
have a great parent committee, and I have a lot of input from 
the community of Anchorage. With that, I just want to let you 
know that we are the largest grantee for title VII funding. I 
have over 8,800 Native students in this district. I think 
people are really shocked at that number. I say children are 
either currently our customers, they've been our customer, or 
they're going to become our customer.
    Here's some statistics from last year. We started out with 
about 8,800 Native students at the beginning of the school year 
last year. We ended in May with about 8,500 students. But the 
total number of students that came in and out of Anchorage was 
10,300. That's 1,800 students that withdrew. They went 
somewhere. Some of them dropped out, as you know from our 
indicators throughout the State.
    I don't think anyone here is not familiar with those 
statistics. But most of them leave, and they go on to a rural 
area. So we have to be included in these conversations and 
these decisions that are going on within our State.
    So I'd like to address four questions today. The first one 
is: Why is there an increase in Native students in the 
Anchorage School District? I think if you were participating in 
the conversation with Senator Murkowski and Congressman Don 
Young, you would have heard the cheese story, and that was one 
of the factors. But I'll elaborate on that in a minute.
    What are the challenges that face our students that come 
into urban areas? What are we doing to assist the students, 
families, and staff as they work to encourage the success of 
our Native students? And how are our Native organizations 
working together to help our students achieve success?
    In thinking about the increase of Native students, 
urbanization is occurring globally. It's just a natural 
occurrence that's going on across our globe. The other thing is 
that we are able to more effectively identify our students. 
Before, we only got to choose a box, either white or Native. 
But now we are able to self-identify and to choose more than 
one box. We're able to identify more students that way.
    The other thing is transients. People come in. They come in 
for a variety of reasons. Maybe it's healthcare. Maybe it's for 
education. Maybe it's just for access to all the great things 
that Anchorage has. It sounds really good at the beginning, and 
then oftentimes they leave. So there's many reasons why we have 
an increase of Native people. And the last one is because of 
just pure population growth. I think we're a healthy, robust 
population.
    And what are the challenges that our children face when 
they come to Anchorage? East High School has over 2,000 Native 
students. You can imagine that this is pretty intense when we 
have kids that are coming from small villages that only have 
maybe 300 to 500 people in the entire village. This school is 
larger than their village, and to access that is just 
overwhelming. Trying to get a lunch is pretty profound for some 
of our students that are coming in from those areas. Even kids 
that are urbanized going into those large urban areas--when 
you're really about making connections with people, it's quite 
difficult.
    So besides that, there's also educational disparity. And 
I'll just read some statistics just from the Anchorage School 
District. Only 53 percent of our students are proficient in 
reading, 46 percent proficient in writing, 43 percent 
proficient in math, 40 percent proficient in science, an 8 
percent dropout rate, and graduation rate is about 50 percent.
    So other issues include social. I think one of the things 
our kids really struggle with is about connections. My family 
is from Aniak. I taught out in Kalskag, and we knew everyone. 
We waved at everyone. We knew everyone's business. We knew 
where Mingo was. We knew if somebody was sick. We knew if 
somebody needed something. We helped one another out.
    Kids that come in sometimes often don't have those 
connections. I will say, personally, I have many family members 
in the Anchorage area. I very rarely see them. I Facebook them, 
but I very rarely see them. So taking kids away from that is 
really hard, and so we do try to make those connections within 
the school.
    For example, at East, we had a class--not last year, but 
the year before when we had a lot of kids coming in, we had a 
class at the very beginning of the school day so that they can 
meet kids coming in from rural areas or new to East High School 
to assist them, thinking about the school profile, the physical 
tour of the school, introductions, explanation of policies and 
procedures of that school, how to ride a bus. Many of our 
students maybe have never ridden a bus before or have walked 
eight city blocks to get to school in the dark when they don't 
know anyone and their parents have to go to work--just school 
resources.
    And then also getting to know the families--what are their 
needs and how can we help them in setting up community 
organizations? I think one of the main things we know is that 
they really lose connections with their culture. I have about 
60 staff members in the schools. We have 110 schools. We're not 
in every school. Chinook Elementary School, which is on the 
Diamond side, has 165 Native students. I have two staff members 
there. They don't see every kid.
    So it's really difficult to do that, and we know, based on 
research--and I'll cite Demmert and Towner in 2003 and 
Kana'iaupuni in 2007--defined cultural-based education. All of 
you referenced cultural-based education. It's critical. We see 
elements of it in the school district, but not much. We need to 
change that. They talk about Native languages, a pedagogy, 
teaching strategies that align to traditional culture. 
Curriculum is really important and understanding the strong 
Native family connection and also community connection. And 
there's more if you'd like to read on that particular research.
    So what are we doing to help families, students, and staff, 
actually, within the school district? We do some staff 
training. We need to have more. There's one of me. I need 
everyone to help with this particular endeavor. It's good for 
everyone.
    We are also, as a district, really moving and have been a 
key player with social-emotional learning--that has really 
helped with our students--and creating a plan of support, 
locating resources for students and families. We also provide 
some language, but not very much. It's very limited. And we 
struggle with trying to find teachers that can teach language 
and putting them within the system and having our system really 
honor and respect that and utilize the people that teach that.
    So title VII really addresses this. I really look at our 
staff as really being liaisons and champions for our students. 
But it takes a whole community. So we have more work to do with 
that.
    Currently, we have two ANEP grants. The first one--and 
these are really exciting ways to be innovative with our 
students and our families. For me, I actually went to schools. 
This came from our Native--one of the grants came with an idea 
from one of our Native advisory committee members. And she 
said, ``You know, my son is really having a hard time accessing 
and finishing this particular area. I wish that we could talk 
about dealing with mobility.'' He kept coming back from Nenana 
to Anchorage, Nenana to Anchorage.
    So we sat down and we had some more dialogue. And then I 
started having more dialogue with other people, and we thought, 
``Wouldn't that be great if we infused some 21st century 
learning tools, thinking about how do we address this mobility 
issue so we can make sure that kids are successful?''
    So this great idea came up, and it's called Project 
Puqigtut, and it's actually an online course offering. We 
looked at the courses that students typically fail, and we 
started offering those online. But the key there, and why we 
have a 70 percent success rate with this particular grant and 
over 40 students as of--actually, almost 50 students that have 
graduated because of this program, is because we have aligned 
with BOT courses, but we adapted those courses to be culturally 
responsive.
    The other components that--we broke down barriers. What 
were the barriers that kids were having? I actually went from 
school to school. I had groups of kids, at-risk students, 
engaged students, and gathered data from them and from 
families. Internet is expensive. We asked the wrong question: 
How many of you have Internet? We need to ask: How many of you 
have consistent Internet? How many of you have Internet that 
you share with your students? You know, your iPhone doesn't 
count when you're trying to do an assignment on it. So we 
provide Internet that people can check out and also computers 
and transportation.
    And the other thing is that they really want those 
connections. So we hire teachers that are really dynamic with 
our youth, and they have the opportunity to meet with them on a 
consistent basis. And this has just been a wonderful, exciting 
program, and we've had many students that have traveled 
throughout the State and have been able to complete their high 
school classes that way. So I think it's been wonderful.
    The other project is called Project Ki'l, and that's a 
Dena'ina word for boy. This is a boy specific program at eight 
schools. We looked at our data, and I would say we're at the 
bottom of the barrel--these boys. Our Native boys are 
underneath the barrel, academically, socially. So one of the 
things that we talk about and we really strive for is that 
cultural connection, the rights of passage, making sure that we 
have role models that are engaging with our youth, and really 
looking at attendance and also academic success.
    This, too, has shown great results. We're in year 4, and we 
look forward to having more results for both of these 
particular programs. They're innovative, and I know that many--
there's a program called iSchool with a Native school district 
that is replicating some of the services that we've been 
providing with Project Puqigtut. If it works for our kids, 
it'll work for all kids. Project Ki'l--there's elements also 
that I know the schools around the school district are looking 
at as well and replicating.
    I'd also like to just mention the Alaska Native Culture 
School. They have done some great things within our district. 
And I know that we look at them, and we say, ``Great job for 
title I--a distinguished school.'' But it goes beyond that 
because families, kids and parents, really feel welcome there. 
So thank you. And I know they're in the audience right now.
    The other thing that I'd like to highlight is that, as you 
know, many of you are probably facing budget cuts, and we are 
as well. And one of our school board members asked the 
question: What kind of services are we having? There were two 
people that were going to be cut that provide services to 
students. So they ordered a study called the McDowell Study, 
and it looked at all the services that are being provided 
within the Anchorage School District, and it was a lot.
    And Gloria O'Neill, if she's in here--she gathered us all 
together to look at the particular report and decided to have 
STRIVE, a creative framework for building what we're calling 
Cradle to Community. I appreciate her leadership, and it's been 
a wonderful opportunity. We're really at the very beginning 
stages of it.
    But this is about a community partnership. And if you can 
visualize lots of different agencies doing all kinds of great 
things for students and families--but the arrows were going all 
over. We all have our own directions. We all have our own 
funding sources. We all have our own objectives. Right? 
Sometimes we write grants to win the grant, not necessarily 
because it aligns with what we're doing.
    And then we look at education, and maybe the arrows are 
going in the same direction. But with STRIVE and the work that 
we're doing as a community, we're aligning those arrows. And 
we're going to have three to five outcomes that are measurable. 
And guess what? We have agencies. We have CIRI, CITC, UAA, the 
mayor, United Way--people that we've never really had strong 
partnerships with--joining us to make sure that those arrows 
are aligned.
    We have hope, and we are really optimistic about the 
services and having those specific goals for our students. It 
is imperative that we collaborate on a fundamental level, 
whether with Anchorage or within the State. And we need to look 
at each other as allies with whom we can work together to 
address and dispel the disparity that exists in educational 
achievement within our State for our future.
    Thank you.
    [The prepared statement of Ms. Brown follows:]
                 Prepared Statement of Doreen E. Brown
                                summary
    Doreen E. Brown will be discussing the urban education experience, 
and how school districts and Native organizations can become more 
synergistic partners in encouraging academic success for our students. 
As the director for the Anchorage School District's (ASD) Indian 
Education Program, which is the largest title VII grantee in the Nation 
with over 8,700 Alaska Native/American Indian (AN/AI) students enrolled 
in the Districts' 110 schools, she will share her expertise. The topic 
is critical, because in order to meet the cultural, social, and 
academic needs of these students, our Native organizations must work 
together.
    There are four questions that will be addressed:

    1. Why is there an increase of Native students in the ASD?
    Answer. Major contributors to the increase include: urbanization, 
increased transience and employment mobility and population growth.
    2. What are the challenges that face them?
    Answer. Significant disparity in educational achievement, moving 
into large urban centers from a smaller community (the school total 
population is often bigger than the community the student has moved 
from), and the lack of a cultural-based education.
    3. What we are doing to assist students, families and staff as they 
work to encourage the success of our students?
    Answer. The Indian Education Program, the Alaska Native Education 
Program, and many community and Native organizations work in 
partnership for Native student success.
    4. How are our Native organizations working together to help our 
students achieve this success?
    Answer. Native and many other city-wide organizations are creating 
a framework for building a Cradle to Community infrastructure with 
STRIVE. The infrastructure includes a shared community vision, 
evidence-based decisionmaking, a collaborative action plan, and 
developing an investment and sustainability strategy as well.
    It is imperative that we collaborate on a fundamental level, and 
look at each other as allies with whom we can work together to address 
and dispel the disparity that exists in educational achievement in our 
District.
                                 ______
                                 
Purpose: To determine the efficacy of efforts being made to improve the 
educational outcomes of Alaska Native and American Indian students, to 
problem-solve what challenges remain, and to explore the role of the 
Federal Government in helping to build on our successes.

Date: October 19, 2012

Time: 4:00-5:30 p.m.

Location: Dena'ina Center

    I am pleased to be here today to discuss the urban education 
experience, and how school districts and Native organizations can 
become more synergistic partners in encouraging academic success for 
our students. My name is Doreen Brown, and I am the director for the 
Anchorage School District's (ASD) Indian Education Program, which is 
the largest title VII grantee in the Nation. Today in Anchorage there 
are over 8,700 Alaska Native/American Indian (AN/AI) students enrolled 
in the Districts' 110 schools. Our topic of discussion here today is 
critical, because in order to meet the cultural, social, and academic 
needs of these students, our Native organizations must work together.
    There are four questions I wish to address today:

    1. Why is there an increase of Native students in the ASD?
    2. What are the challenges that face them?
    3. What we are doing to assist students, families and staff as they 
work to encourage the success of our students?
    4. How are our Native organizations working together to help our 
students achieve this success?
          why is there an increase of native students in asd?
    There has been a significant increase of Native students in the ASD 
over the past 10 years, as determined by the number of completed 506 
eligibility forms on file at our office, and also by self-reported 
ethnicity codes. The number of Indian Education eligible students with 
completed 506 forms in the 2005-6 school year stood at 5,758. Today 
that number is 7,737. Based on self-reported ethnicity codes, we have 
potentially another thousand students who may be eligible for our 
services.
    There are numerous reasons for this increase, including population 
growth, increased transience and employment mobility, and continuing 
urbanization.
                        what are the challenges?
Educational
    One of the greatest challenges facing Alaska Native/American Indian 
people is a significant disparity in educational achievement. Below is 
a snapshot of the data from the Anchorage School District's 2010-11 
Profile of Performance:

    <bullet> Grades 4-10 Reading: Percentage of proficient students 
Alaska Native/American Indian (AN/AI) 53.18 percent.
    <bullet> Grades 4-10 Writing: Percentage of proficient students AN/
AI 46.01 percent.
    <bullet> Grades 4-10 Mathematics: Percentage of proficient students 
AN/AI 43.56 percent.
    <bullet> Grades 4-10 Science: Percentage of proficient students AN/
AI 40.31 percent.
    <bullet> Grades 7-12 Annual Dropout Rate of AN/AI students 8.47 
percent.
    <bullet> 4-Year Cohort Graduation Rate of AN/AI students 50.88 
percent.
Social
    Many rural students are enrolling in Anchorage schools that are 
larger than their home community. They and their families need 
assistance in acclimating to our school system. This assistance could 
include: school profile, physical tour of school, introduction and 
explanation of school personnel, school bus operation and schedules, 
school resources, input from family about student's educational 
history, and setting up social supports within the school and 
community.
Culture
    Many AN/AI students in an urban environment such as Anchorage lack 
opportunities to connect with their heritage, language and culture that 
may be more readily available in rural settings. Research has 
identified several components of Cultural Based Education that are 
critical to improving Native student performance. In recent literature 
reviews of these studies, Demmert and Towner (2003) and Kana'iaupuni 
(2007) defined Cultural Based Education as having these critical 
elements:

    1. Recognition and use of Native languages;
    2. Pedagogy using traditional cultural characteristics and adult-
child interactions;
    3. Teaching strategies that align with traditional culture and ways 
of knowing and learning;
    4. Curriculum based on traditional culture and Native spirituality;
    5. Strong Native family and community participation in education 
and the planning and operation of school activities;
    6. Knowledge and use of the community's political and social mores;
    7. Meaningful and relevant learning through culturally grounded 
content and assessment; and
    8. Use of data from various methods to insure student progress in 
culturally responsible ways.
       what we are doing to assist students, families and staff?
Indian Education Program
    The Anchorage School District's Indian Education Program is crucial 
to meeting the cultural and academic needs of Native students that 
schools do not otherwise address. Our program staff works hard to 
improve academic outcomes for Native students, while encompassing 
social-emotional learning, and building connections to heritage, 
culture and language. They also perform other critical tasks, such as 
researching the educational history of new-to-District students, 
addressing individual needs of the student, creating a plan of support, 
locating resources for the student and family, finding or assisting 
with Indigenous language translations (over 270 Yup'ik and 60 Inupiaq 
students enrolled in the ASD's English Language Learners Program in 
2011), making personal connections, and conducting culturally 
responsive professional development at each school site. Funding is 
limited, therefore our resources are limited as well. In 2010-11, the 
Indian Education Program provided direct supplemental services to 3,378 
AN/AI students.
Alaska Native Education Program (ANEP)
    Alaska Native Education Program funds provide critical resources 
for the creative solutions needed to address the issues facing our 
Alaska Native and American Indian students. We currently have two 
successful projects through this funding source. The first, Project 
Puqigtut (Cup'ik word for ``Smart People''), is a ground-breaking high 
school success program, launched in 2008 for 21st century Alaska Native 
and American Indian students. Students can earn core credits through 
culturally responsive online coursework, either to get ahead, or get 
back on track in order to graduate. Project Puqigtut incorporates 
cultural role models and Native ways of knowing into a 21st century 
learning model. It can operate outside of the school day, so that it 
has the unique ability to meet students where they are--at school, at 
home, at a shelter--and prevents them from falling through the cracks. 
Project partners include Cook Inlet Tribal Council, Job Corps, King 
Career Center, the University of Alaska, Anchorage. Project ``P'' has 
brought over 300 high-risk students closer to graduation and has quite 
literally made it possible for them to complete high school.
    Our second program funded by ANEP is Project Ki'l (Ki'l is Dena'ina 
Athabascan for ``boy''). This highly innovative project was launched in 
2007, and serves over 500 Alaska Native boys between the ages of 3 and 
10 each year. Native boys are one of our highest risk and most 
vulnerable student groups, and among the most likely to experience 
academic failure and/or drop out. Project Ki'l reaches these boys and 
their families early in the boys' development. It seeks to demonstrate 
that culturally responsive education results in higher academic 
outcomes, and brings in fathers and other male role models to foster 
high self-esteem and success. This model helps parents, educators, and 
community supporters such as Cook Inlet Head Start, the Alaska Native 
Heritage Center, University of Alaska, Anchorage, and Cook Inlet Tribal 
Council meet the unique and pressing needs of Native boys--all as 
partners in their education. Project Ki'l reaffirms the boys' identity 
by celebrating, sharing, and embracing their heritage and traditions.
                how are organizations working together?
    During the spring of 2010, the ASD was tasked with the difficult 
task of making budget cuts. One of the proposed cuts was to two 
positions that primarily served AN/AI high school students. One of the 
ASD school board members, Jeannie Mackie, performed several sites 
visits to learn more about the services these two positions supported. 
In addition to learning about these services, she made connections 
between other agencies and ASD departments that also offered support to 
students and families. Mrs. Mackie found that there are many services 
for Native students and families from numerous organizations, she then 
requested that a study be conducted that reviewed and consolidated the 
services, the McDowell study was completed in February 2011. The STRIVE 
school board initiative was borne out of these connections.
    STRIVE creates a framework for building what is called a Cradle to 
Community infrastructure. It is a way for the community to organize 
itself around a shared vision and identify the things that achieve 
results for children. STRIBE improves and augments these efforts over 
time, targeting the investment of the community's resources in 
different directions to increase their impact.
    It is imperative that we collaborate on a fundamental level, and 
look at each other as allies with whom we can work together to address 
and dispel the disparity that exists in educational achievement in our 
District.
                               References
    Demmert, W.G., Jr., & Towner, J.C. (2003). A review of the research 
literature on the influences of culturally-based education on the 
academic performance of Native American students [Final paper]. 
Portland, OR: Northwest Regional Educational Laboratory. Available at 
http://educationnorthwest.org/resource/561.

    Abstract: One of the major tasks facing Native American communities 
(American Indians, Alaska Natives, and Native Hawaiians) is to create 
lifelong learning opportunities that allow all the members to improve 
their quality of life, and to meet their tribal responsibilities 
through meaningful contributions to the local, national, and world 
communities in which they live and interact. The greatest educational 
challenge for many is to build learning environments that allow each of 
their young children to obtain an education that ``creates good people 
that are knowledgeable and wise.'' The formal reports cited in this 
review of the literature present the position that knowing, 
understanding, and appreciating one's cultural base are necessary 
starting points for initiating a young child's formal education. The 
theory is that it sets the stage for what occurs in a youngster's later 
life. The task of this report is to review the research literature to 
determine whether there is a direct relationship between a culturally-
based education curriculum and improved academic performance among 
Native-American students.
    Kana'iaupuni, S.M. (2007). A brief overview of culture-based 
education and annotated bibliography (Culture-Based Education Brief 
Series). Honolulu: Kamehameha Schools, Research & Evaluation. Available 
at http://www.ksbe.edu/spi/cbe.php.
    Senator Murkowski. Thanks, Doreen.
    Carl.

  STATEMENT OF CARL ROSE, EXECUTIVE DIRECTOR, ASSOCIATION OF 
                ALASKA SCHOOL BOARDS, JUNEAU, AK

    Mr. Rose. Thank you, Senator, for this opportunity to speak 
with you and be on the record. I would like to associate myself 
and maybe establish my credibility. I am not only the executive 
director of the School Board Association. I am also very 
interested in the American Indian and Alaska Native and Native 
Hawaiian Act. I happen to be Hawaiian.
    As a young boy, I was taught the term, when you have no 
more love in the soul of the Hawaiian, then there is no more 
Hawaii. Then there is no more Hawaii. So I want to report to 
you that many of the people in Hawaii--though there are very, 
very few pure Native Hawaiians, Hawaii is alive and well 
because of their language and their culture.
    So with that, I think I want to proceed with some of my 
comments, if I may. I've been asked to preface some of the 
opportunities that are available to Alaska and its people that 
maybe many of you don't realize. So I will take a couple of 
minutes to say that in the Constitution of the State of Alaska, 
under Article VII, Health, Education, and Welfare, the 
legislature shall establish by general law and maintain a 
system of public education open to all children. That is 
profound.
    The Alaska legislature has seen fit to delegate certain 
educational functions to local boards, in order that Alaska 
schools might adopt and reflect the varying conditions in 
various locales around the State. We're talking about local 
control here. The decisions over your schools are held largely 
locally. And I want to touch on something that Doreen said. The 
public, you, need to hold your school districts accountable. 
You need to hold your boards' feet to the flame.
    Now, that sounds kind of strange for the executive director 
of the School Board Association. But, if nobody attends our 
meetings, nobody is monitoring public schools. You need to 
engage yourself.
    School boards are created in the statute. This is their 
authority under AS 14.12.030 and also in the unorganized 
borough under AS 14.12.170. The Rural Education Attendance 
Areas, the REAAs, are part of the unorganized borough, and they 
are recognized as school districts. Therefore, their governing 
bodies are school boards as well.
    So it doesn't matter where you're at in the State of 
Alaska, whether you're in organized Alaska or unorganized 
Alaska. Your borough assembly in unorganized Alaska may be the 
Alaska legislature. But your schools are governed by local 
school boards. And that's a real opportunity I think you should 
avail yourself of.
    The authority of school boards over their budgets and 
district operations--school districts have broad discretion 
over procedures, procurement, and finance decisions. And in 
statutes, in courts, they quote that the court should exercise 
great caution before disturbing the districts' boards' 
authority. That doesn't mean you can't overturn them. But that 
means you should observe that they represent the people 
locally.
    The duties of the school board is to determine and disburse 
a total amount of funds available for salaries, compensation 
for all school employees and school district operations, and 
provide an educational program during the school term every 
year. This should be of interest to you. In AS 14.14.100, 
bylaws and administrative rules, the school board policies 
related to management and control of the school district shall 
be expressed in written bylaws formally adopted by regular 
school board meetings.
    Every year, school boards review their policies. And, in 
fact, at every meeting, you have an opportunity to speak on 
those policies. They have to be clearly stated in bylaws, and 
they're available to the public. The chief school administrator 
may be selected and employed and needs to be a qualified person 
and shall be compensated and controlled as well as all 
administrative officers. The Association of Alaska School 
Boards is also in statutes as a representative agency of school 
board members of the State of Alaska.
    So what I'm trying to say is that the process for governing 
our schools is really quite clear. Through statutes, through 
regulations, through negotiated agreements, through budgetary 
decisions that are being made and also court decisions, this is 
the framework that is set for school districts. Aside from all 
that jargon, the thing that you need to know is that your 
elected officials are responsible and accountable to you. And 
so these are their responsibilities, but you need to hold them 
responsible.
    One of the difficulties we have that faces the public is 
the active exercise of citizen ranks in a representative 
government. Too few citizens understand how schools are 
governed, how they're financed, how they're controlled, and how 
they're overseen. Let me repeat that. Too few of our citizens 
understand how we're governed, how we're financed, how we're 
controlled, and how we're governed. Some people in this room 
may be in that group.
    The public in public education in many ways are absent from 
the representative form of government. I don't say that to be 
critical. I'm saying that many of us expect something to happen 
without us being part of the solution. So communities being 
actively engaged, intentionally engaged, in their civic 
responsibilities are key to the public success in public 
education. The public is key.
    We can blame school boards. We can blame teachers. We can 
blame administrators. We can blame anybody we want. The fact of 
the matter is it's clear in statutes that the public has the 
ability to ensure that the process works, so the process is 
clear. And I think that that kind of leads me to some of the 
comments that I wanted to make, and I'm trying to preface my 
written testimony.
    But, understanding the challenges that we face is a pretty 
important issue. When you talk about quality, performance, 
accountability, and fairness; quality, performance, 
accountability, and fairness--those are our challenges. Do we 
understand that? I don't know that we do. In many cases--not 
anybody in this room--but in many cases, we go straight to 
blame before we even start to understand what our 
responsibilities are and what the challenges are that we face.
    At AASB, we have done some research to try to determine 
what have been the overriding factors that contribute to 
student success in terms of staying in school or leaving 
school. And we find that there are some personal problems and 
some family pressures that really top the list, and they are--
like you don't already know--drug and alcohol use, peer 
pressure, lack of family support, economic reasons, early 
parenthood, and mental health reasons, depression. Some of our 
kids suffer from depression, and many of them in our schools 
have to go it alone--followed by this negative experience with 
peers, teachers, and authority figures in schools, the lack of 
positive connections and support from teachers and staff in the 
belief that school will help them in their future careers. They 
lack that belief.
    I think right there, where are the families? Where are the 
parents? Where are the people who care for our kids? Doreen 
asked you. We need help. We need help.
    So, I would share with you there are some distinct 
differences that make good schools. And these are responses 
from some of the students that we surveyed and asked. These are 
from Native students, non-Native students. These are people who 
are engaged, not engaged. The list goes on. In terms of the 
things that they think are good with schools is that they feel 
connected with schools. And, of course, if they don't feel 
connected, they're not too keen on schools.
    So when you take a look at the importance of feeling 
connected in schools, when you take a look at the kind of 
academic opportunities you have, extracurricular opportunities, 
good teaching structure, and teacher expectations, they view 
those items as critically important to them to want to stay in 
school. To the contrary, when we lack that expectation for our 
kids, maybe we get what we get. But we shouldn't.
    The two major issues we're dealing with here today, not so 
much health, but education, I think, are critically important 
in our communities. So, when I talk about my association, I am 
governed by a 15-member board that's elected from the regions 
of the State. I have 333 school board members elected. They're 
created in statutes and they are empowered with what I just 
told you. They come from 53 school districts and they represent 
the interest of 129,000 kids.
    And so what is it that they do when they come together as 
an association? Well, we have decided that as a result of what 
we're seeing in the field in over the last 11 years, we have 
engaged in a community engagement, the Initiative for Community 
Engagement, Alaska ICE. We think that if you engage parents, 
families, and communities in the intentional concern for your 
students and how you might be able to interact with the 
entities that exist, mainly school boards, your chances of 
success go way up in terms of impacting the system.
    I will tell you that the reason we have this program or had 
this program was over the last 11 years, we have been 
recipients of dollars from the Alaska Native Equity Program. We 
did not get that money this year. And I will tell you what I 
told my board of directors. The day may come when we say that 
might have been the best thing that happened to us.
    I understand why Native people want to have more control of 
Native moneys. That does not negate the fact that community 
engagement is critically important. So the school board 
association is going to take it upon themselves to sustain that 
effort through whatever means necessary. We have some designs 
in terms of how we're going to do that.
    The other concerns that we have are early childhood 
development at the community level and pre-kindergarten--
critically important. We know that if our kids are better 
prepared to take advantage of an education, that is, a free 
education that they'll never receive again, their chances of 
success go way up. And if they're proficient in reading and 
writing and mathematics by the third grade, it is the leading 
indicator of success through the educational process, the 
leading indicator. If they're not prepared, that's where the 
performance gap starts, because the curriculum steepens and 
they fall farther and farther behind. If we know this, why are 
our systems not paying more attention to that?
    Another thing that came up here shortly, and we are deeply 
involved in, is the whole issue of digital learning. We think 
it's a great equalizer. The kind of technology that's available 
to us today is critically important. The ability to give kids 
the opportunities that everybody else enjoys via digital 
instruction requires some investment to be made. Do we have 
enough bandwidth? No, not yet. Do we have enough professional 
development? No, not yet. Is it worth the investment to ensure 
that our kids get the best bite of the apple? Absolutely.
    Senator, I think that's one area we may want to pay 
attention to rather than a competition for Federal funds such 
as Race to the Top dollars that we are not included in.
    What I want to say is that, in conclusion, the challenges 
that we have regarding fairness and equity--I think everything 
that I've heard here today and comments that were made outside 
is that Native Alaskans feel that fairness and equity is not 
being provided like everywhere else. And I think the same is 
true in our State. I think many of our citizens feel like 
fairness and equity is not provided for us.
    Now, I'm getting into the deep end of the pool here. But if 
you take a look at the census data and the reapportionment, if 
you look at the representation in our State, the rail belt is 
represented quite well. So you know what the alternative is. 
We've lost much representation across rural Alaska. And it's 
important that all of us recognize that and remind people that 
we have responsibility under our constitution.
    So if I could share with you this idea of engaging people, 
when we talk about engaging and having citizens exercise their 
rights, communities and public and private entities getting 
engaged in schools, these are our children. And though many of 
us don't have kids in school anymore, we have grandkids in 
school. These are our children. These are our communities. It 
is our responsibility.
    So I would share with you--join us in helping kids succeed 
Alaska style through the Initiative for Community Engagement. 
It's in your communities.
    Senator, I've gone on quite long enough. Thank you very 
much for the opportunity to speak and thank you for being here.
    [The prepared statement of Mr. Rose follows:]
                    Prepared Statement of Carl Rose
                                summary
    Educational opportunities and student proficiency in Alaska will 
improve if the ``public'' in public education were to engage in 
``Helping Kids Succeed Alaska Style.''
    Understanding the challenges we face as we address issues of 
quality, performance, accountability and fairness are critical to 
ensuring the most appropriate solutions are applied. Although there are 
no ``silver bullets,'' we know the root causes and initiatives need to 
remedy the challenges facing us.
    AASB researched reasons why students stay in school or leave early. 
We asked students directly--engaged and disengaged, Alaska Native and 
non-Native, rural and urban, and youth who had recently dropped out--
about why they or their peers leave school. Across all groups, they 
listed personal problems and family pressures as the top reasons (drug 
or alcohol use, peer pressure, lack of family support, economic 
reasons, early parenthood and mental health reasons (depression), 
followed by negative experiences with peers, teachers or other 
authority figures at school, lack of positive connections with or 
support from teachers and staff, and belief that school will not help 
them in their future careers).
    But these groups also showed some distinct differences in their 
views on what makes a good school: disengaged students put higher 
importance on feeling connected to school and adults; Alaska Native and 
disengaged students more often listed academic and extracurricular 
opportunities, good pedagogy, structure, and teacher expectations as 
important.
    Clearly, the two major issues this committee is examining today--
health and education--are closely intertwined.
    AASB believes that proven ways to improve student achievement in 
Alaska revolve around empowering parents, families and communities to 
take a greater interest in their children's education. We are already 
seeing great dividends from AASB's Initiative for Community Engagement 
(Alaska ICE), which has built working partnerships between school 
districts, non-profits, tribes, local communities and other agencies 
that advocate for children and families.
    AASB also believes that Alaska must continue to improve early 
childhood development through community-based family engagement 
programs and pre-kindergarten to prepare our youngest citizens to be 
ready for school.
    A greater investment in digital learning will also level the 
educational playing field between urban and rural communities. Alaska 
needs additional bandwidth, curriculum and professional development to 
take advantage of advances in digital learning. This investment would 
produce more dividends than a competition for Federal education funds.
                                 ______
                                 
    Chairman Harkin, Senator Murkowski, members of the committee, thank 
you for this opportunity to testify on an issue of critical importance 
to my State and Nation.
    Alaska differs from any other State in many ways, but we share some 
notable similarities with rural America when it comes to education. 
Because of changes in our census data and reapportionment, there has 
been a realignment of representation that has left rural Alaska in a 
secondary position when it comes to education.
    When Alaska became a state in 1959, we inherited a system of 
schools operated by the Bureau of Indian Affairs in rural Alaska. 
Following a difficult transition to State Operated Schools and the 
Molly Hootch consent decree, Alaska made a commitment to fund and 
operate high schools in small rural communities so that students could 
stay at home and families remain united. And so the Rural Education 
Attendance Areas were born in 1976.
    Alaska invested in the REAAs by building schools and establishing 
elected regional school boards to make important decisions about 
curriculum and staff. For some of our smallest communities, the local 
school board was the first form of local government they had. 
Naturally, there have been challenges with such a new and Western 
concept of local control of education.
    The Association of Alaska School Boards is a small 501 (c) 3 non-
profit organization. AASB represents 333 elected school board members, 
53 school districts and the interests of 129,000 public school 
students. We meet annually to resolve ourselves behind core belief 
statements and resolutions. AASB is governed by a 15-member board 
elected from the judicial districts of the State. We are organized 
under a long-range strategic plan that identifies clear goals, 
objectives and strategies that guide our efforts. AASB is assisting 
school boards to create the vision and structure for successful K-12 
schools. Our Board Standards, our Policy Service, and our Quality 
Schools initiative are used by nearly all school districts in Alaska. 
AASB's board of directors made the decision years ago to spend less 
time fighting labor issues and instead focus proactively on being an 
advocate for Alaska's youth and on success for all of Alaska's 
students.
    As a result, since passage of the No Child Left Behind Act in 2001, 
AASB has been instrumental in implementing a key provision of that law, 
title VII's Alaska Native Education Program. A small but critical 
portion of annual funding provided by title VII has helped AASB empower 
families, communities and parents to take a greater role in their 
children's education. For the last 11 years, AASB, through our 
Initiative for Community Engagement (Alaska ICE), has built working 
partnerships with school districts, non-profit organizations, tribes, 
faith communities and other groups with an interest in kids to change 
the environments surrounding youth and increase their chances for 
success in school and the workplace. Alaska ICE is highly successful, 
and we have data to prove it.
    As you know, America's schools do not exist in isolation. Neither 
do schools in Alaska. What happens in our homes and on our streets 
inevitably affects the child as he or she arrives at school each 
morning.
    One of the challenges is the lack of basic infrastructure in some 
of our most remote communities. Transportation is expensive. Groceries, 
utilities, heating all cost more, sometimes double. Communication with 
the outside world is improving, but stubbornly spotty as bandwidth 
continues to be a barrier. These may be the facts of life in rural 
America. But it is neither fair not equitable that the water and sewer 
systems we take for granted in America are still absent in too many 
rural Alaska homes. If these conditions existed in our Railbelt 
communities, they wouldn't be tolerated.
    As you may know, the Alaska constitution requires our legislature 
to establish and maintain an education system for all children. And we 
have some excellent schools serving rural students. Students graduate 
and go on to attend Dartmouth, Harvard, and Stanford.
    But too many students struggle.
    Today, the statewide graduation rate for Alaska high schools stands 
at just over 70 percent. The Department of Education & Early 
Development calculates that the graduation rate for Alaska Native 
students is just over 58 percent.
    Why is that? AASB decided to ask students themselves.
    Each year, we work with participating school districts to measure 
the climate of our schools and the degree to which students and staff 
feel connected. Climate and connectedness are directly correlated with 
student engagement and achievement (higher school-wide proficiency 
rates in reading, writing and math and higher graduation rates), and 
also with fewer student risk behaviors (drugs, alcohol and violence). 
In the last school year we surveyed more than 31,000 students and 6,700 
staff in 28 school districts across Alaska. This is the School Climate 
and Connectedness Survey, another innovative service that AASB staff 
has pioneered in Alaska.
    AASB also recently undertook a research project to delve into what 
matters to students and especially to understand what drives students 
to stay in school or leave early. With the help of four school 
districts, we interviewed a broad spectrum of students at 26 schools 
about why they and their peers stay in school or drop out. Students--
engaged and disengaged, Alaska Native and non-Native, rural and urban, 
middle and high school, and some young people who had already dropped 
out--had quite similar opinions about why they and their peers leave 
school; across all groups, they listed personal problems and family 
pressures as the top reasons. Their answers (by frequency of response) 
were:

    1. Drug or alcohol use;
    2. Choosing to spend time with peers or a boyfriend or girlfriend 
who dropped out;
    3. Lack of family support for education;
    4. Needing to help support their family (from a financial or 
practical perspective);
    5. Early parenthood;
    6. Laziness or not wanting to get up in the morning;
    7. Depression;
    8. Negative experiences with peers at school (bullying, being 
picked on, being isolated);
    9. Negative experiences with teachers or other authority figures at 
school;
    10. Lack of positive connections with or support from teachers and 
other staff; and
    11. Belief that school will not help them in their future careers, 
so it would be better to drop out and start earning money.

    But these groups also showed some distinct differences in their 
views on what makes a good school where students want to be:

    <bullet> Feeling connected to school and adults is viewed as 
significantly more important by disengaged students than engaged 
students.
    <bullet> Alaska Native and disengaged students more often listed 
academic opportunities, rigor, good pedagogy, structure, academic and 
extracurricular options and teacher expectations as important.
    <bullet> And while it appears that schools are not ``pushing'' 
students out as much as students are being ``pulled'' out by personal 
and family pressures, it may be that adults at school can especially 
help disengaged students resist that pull by reaching out and teaching 
well.

    Those answers from young Alaskans lead me to the conclusion that we 
cannot separate family and community issues from school-related 
problems for students who leave high school early. The two major issues 
this committee is examining today--health and education--are closely 
intertwined.
    Regardless, we know what the solutions are, and they don't 
necessarily originate in Washington, DC. Our experience with NCLB has 
taught us many lessons, not all positive. Despite its good intentions, 
NCLB never adequately addressed how we should improve curriculum, 
instruction, professional development and assessments. Schools were 
forced to put everything on hold to teach the basics and then measure 
progress. In the end, the only job left for us to do under NCLB was to 
deal with the sanctions the law imposes on even our best schools.
    Now the latest solution from the Federal level asks schools to join 
in a Race to the Top.
    Instead of a competition for education dollars, I would advocate 
that the Federal Government provide a level playing field. We know a 
relatively small investment can pay huge dividends when it helps 
empower families, parents and communities to take more interest in 
their kids' education. As citizens we need to take more responsibility 
on ourselves to make sure our schools and communities serve the needs 
of our children.
    One significant investment that would provide educational 
opportunity for more students is digital learning. This can be the 
great equalizer for rural and urban Americans. Not every family can 
afford the Encyclopedia Britannica, but today that 100 pounds of 
knowledge is available on a computer near you.
    Does rural Alaska have enough bandwidth to enter the age of digital 
learning? Not yet. Are America's teachers getting the professional 
development they need to make digital learning successful? Not yet. Are 
our students worth the investment to bring the world and all it has to 
offer to them digitally? You bet. Perhaps Congress can lend a hand to 
Alaska and other States.
    AASB members also believe that Alaska must continue to improve 
early childhood development through community-based programs and pre-
kindergarten to prepare our youngest citizens to be ready for school. 
We know that children who are proficient in the basics by the third 
grade are much more likely to be successful in school and in the 
workforce upon graduation.
    In conclusion, the challenges to provide equity and fairness are 
immense but not insurmountable. AASB and its elected membership accept 
this challenge and encourage all of our citizens, communities, public 
and private entities to assist us in ``Helping Kids Succeed Alaska 
Style.''
    Mr. Chairman, once again, thank you for allowing me to testify 
today.

    Senator Murkowski. Thank you, Carl. Appreciate it.
    And let's hear Sonta.

   STATEMENT OF SONTA HAMILTON ROACH, TEACHER, INNOKO RIVER 
                      SCHOOL, SHAGELUK, AK

    Ms. Roach. Thank you so much for having me, Senator 
Murkowski. I am very honored to be serving on this panel today. 
As you can see, my title right now is teacher in Shageluk. I 
just took off my hat as the director of Future Educators of 
Alaska, and I think that also is why I'm here to talk about 
growing our own educators.
    I really heard today that the main topic, which we should 
focus on is ownership of education and what that means, and 
that's one of the things I'm going to talk about in my 
testimony. But I want to say that that's really kind of the 
foundation of what I'm going to be talking about, and also the 
importance of having education brought to AFN.
    We had a real education caucus 2 years ago, and it was held 
in Fairbanks. And it does need to be pushed to the forefront of 
AFN and our corporations. Education is something that is the 
future for our corporations and our communities. So I thank you 
for bringing this conversation here today.
    Through my experience as a local teacher from my own 
community--I am in Shageluk right now teaching--and, like I 
said, formerly the director of FEA, Future Educators of 
Alaska--being the director is one thing, but then actually 
being in the classroom, seeing it, being with the students--
that's entirely another thing. And it has really opened my eyes 
to the need to grow our own educators, and not just teachers, 
but also administrators, superintendents, more 
paraprofessionals, and more funding and support to develop 
pathways for students to go through, finish in a timely manner, 
and be back in their communities and in their schools.
    I'm focusing on three things. One is the need, of course, 
for more Alaska-grown educators. The second is ownership of 
education, and it's just another kind of spin on what we're 
talking about, culturally relevant curriculum, engagement, 
community engagement. Ownership, I think, means a little more. 
It's just the word I've been putting on it. It's community 
members being empowered, contributing to the process. The last 
one is the career pathways and workforce development.
    As a student in rural schools, you often see teachers 
coming and going year after year. This is a big topic that 
we've all heard, just the high turnover rates, and teachers 
still leave mid-year. We need to get teachers that are in the 
community, staying. We've done some successful things in terms 
of the courses that they have to take for teachers that aren't 
from Alaska, the culturally relevant course. And that has 
helped tremendously. I think there needs to be more of an 
effort, though, for supporting the programs that would support 
teachers, growing our own educators.
    Education needs to be seen as a career pathway. And I think 
the Future Educators of Alaska did a really good job of that. 
We had 600 students across 29 school districts in Alaska, and 
one of our big successes--and it's still kind of in the process 
of being ironed out right now--is at each of the MAUs, the UAF, 
UAS, and UAA, we're looking at an Ed 100 level course that's 
geared toward--I shouldn't say geared toward--both juniors and 
seniors in high school and freshmen in college can take this Ed 
100 level course that's accepted at each of the campuses.
    And that's still in the works. I think it's important to 
say that that's a huge success for our students in our 
districts across Alaska that have that opportunity when we talk 
about access to colleges, to education. That's been tremendous, 
I think, for us--and just to continue to support that.
    Bringing it back to me, personally, as a student in 
Shageluk, one of the things that I knew--if I could go back to 
Shageluk, I either had to get a job in the tribe or an 
education. And I really worked hard with both my degrees, rural 
development and elementary education, because I knew I wanted 
to get back there. And I think that's important when we're 
talking about career pathways. What are those pathways for our 
students? Where do they see themselves, and how can we help 
them achieve those goals?
    Ownership of education means local level control. This is--
and I know we just briefly talked about this--not our 
definition of having, local school boards, but instead it's 
community planning as it relates to what our children, the 
whole child, should know while going to school. It relates to 
our culture, those skills that they need, their traditions. And 
the planning and implementation process will directly affect 
their test scores.
    Students desire to live and learn in their own communities. 
And I think, along the same page of what other people are 
saying, those conversations need to happen locally, regionally, 
statewide. They need to be facilitated in a manner that's 
proactive and progressive, whether it's getting more elders 
into the school, the tribe into the school, and at the regional 
level, corporations, and the nonprofits helping develop some of 
those career pathways for students. I see that really being a 
benefit to communities and to schools, and for that ownership, 
of feeling like we know what our children want to be.
    We've thought about career opportunities in the community 
for them. Those career pathways need to be made. We talk about 
high dropout rates and other issues that happen when they get 
to high school. You know, maybe it is because they don't see 
themselves going to college anymore.
    I teach K through second grade now, and one of my second 
graders wants to be a policeman, and I said, ``Yeah, that's 
great.'' And we talked about college and what that means. But 
we talked about, can you be a police officer in Shageluk? And 
even at second grade, they can understand that. I think that 
speaks volumes. Career pathways--and I keep mentioning it. We 
need to ask ourselves: Where do students really see themselves 
after high school?
    And, finally, I want to stress the importance of student 
count. I know I'm kind of switching gears here, but I want to 
wrap it up. Shageluk, as well as a couple of other communities 
in our school districts, are on the verge of the magic No. 10. 
You know, school closure. If you get under 10, your school is 
going to be closed. And we've really gone through--or made some 
strategies in terms of getting people to come back.
    I think it's really important to think about formula 
funding. We have a lot of students at the high school level 
that go to regional boarding schools. I went to a regional 
boarding school. I don't have any negative things to say, other 
than a lot of our students go, come back during Christmas, and 
that funding stays with that school. So I think it's a big 
concern, especially for our small schools that are facing 
funding issues.
    And, again, I appreciate the opportunity to talk today. 
Thank you.
    [The prepared statement of Ms. Roach follows:]
               Prepared Statement of Sonta Hamilton Roach
    Through my experience as a local teacher from my own community, and 
over the years as director of Future Educators of Alaska, I have 
focused my attention on three things: increasing the number of Alaska 
Native/local teachers and administrators in Alaska schools; 
``ownership'' of education and empowering communities through 
education; and the need for career pathways and workforce development.
    As a student in a rural school, you often see teachers coming and 
going year after year. Often, and many Alaskan students have 
experienced this, teachers will leave mid-school year. The reasons we 
are all familiar with: culture shock, lack of accommodations, 
difference in communication, and distance from family and cities. With 
less than 5 percent of the teaching workforce being Alaska Native, and 
over 90 percent of students in rural schools being Alaska Native, there 
is a strong need for more Alaska Native teachers, papa professionals, 
principals, superintendents. Funding needs to be aimed at this goal. 
Education needs to be seen as a career pathway. When I was a student, I 
viewed either teaching or tribal work as my career goals because that 
way I could live and work in my community.
    ``Ownership'' of education means local level control. This is not, 
as our definition stands, having a board for school districts. It is 
not local school boards. Instead, it is community planning as it 
relates to what their children--the whole child--should know while 
going to school. It relates to their culture, their local skills, their 
traditions. I believe that this planning and implementation process 
will directly affect, in a positive manner, student test scores, 
students' desires to live and learn in their own communities, and 
community revitalization as a whole. Our communities are in need of 
this--many of our schools are facing school closure, and the school and 
education can play a role in making positive change.
    Career pathways should be a strong focus for our rural Alaska 
schools. We need to ask ourselves--Where do students REALLY see 
themselves after high school? When they're in elementary school, 
perhaps they say dentist or police officer, but when they reach high 
school, is this dream still possible? Do they want to work at the city 
or tribal offices? What are the career pathways? Who is talking to 
them? I don't see this being a focus, and I believe it should be. 
Realistically, students need to know what jobs are available in the 
cities and what's available in the villages. They need access to 
resources, scholarships, jobs, programs--we need access and 
communication of resources.
    FINALLY--I want to stress the importance of student count and the 
impact it has on communities. I didn't preface this earlier, but I 
think it's everything we need to focus on. We need to look at the 
student count and formula funding. What are the benefits of waiting 
until October to do the student count? We get MOST all of our students 
back from boarding schools after Christmas. Funding should follow the 
student wherever they are.

    Senator Murkowski. Thank you, Sonta.
    Thank you to each of you. There's been a lot of--if not the 
same words used, certainly the same suggestions and ideas, 
whether we refer to it by way of engagement or ownership or 
community planning. So much of it seems--at least this 
conversation up here seems to be focusing on how we really do 
work collaboratively in an effort to make these connections 
with the kids.
    I want to ask a couple of questions. I had specifically 
asked each of you to be kind of prepared to speak to what 
barriers in Federal law, regulation, or policy need to be 
changed in order to help better facilitate our students' 
successes. And then, more broadly, how can Native organizations 
and our schools and our tribal governments, our communities, 
the parents, the students, everybody that is involved, all 
stakeholders, really be working together to, again, improve our 
students' success?
    But I want to ask a couple of specific questions, and it 
stems from your comments, Peggy, on the curriculum that has 
been developed there in the North Slope Borough and your 
framework, your Inupiaq Framework. And everybody, I think, has 
mentioned the need to have culturally relevant curriculum. It 
allows you to make that connection to school, whether you're in 
Barrow or whether you are in Anchorage.
    How big of a challenge is it to implement culturally 
relevant curriculum? And maybe this takes us back to some of 
the Federal laws and regulations and policies. It sounds easy 
enough. You can just go ahead and put together a nice chart. Is 
it really that easy? How difficult is it, given what we're up 
against with some of the Federal initiatives and policies that 
we're dealing with?
    I'll start with you. But anybody else can jump in. This is 
supposed to be a dialogue. This is not me posing individual 
questions. So go ahead and start us off.
    Ms. Cowan. It's hugely difficult. But, I mean, we're on 
year 3 of a 5-year plan, and we're not going to be done at the 
end of that, and it's taking a lot of resources. But there's a 
lot of levels of difficulty. Sonta's emphasis on local teachers 
and local people in our schools and career paths--and those are 
critical. And your emphasis on collaboration and community 
people, community folks in our schools--because we are largely 
a community of teachers from largely the lower 48 and largely 
not Native, even those from Alaska. So that's a huge thing 
which, again, Sonta's program and others do.
    But then the emphasis--that's why I made the big push and 
echoed some of your words on the mission-driven curriculum, 
because at the same time that we need to be accountable to 
adequate progress and tests that don't necessarily measure what 
our students know and don't emphasize authentic learning and 
could have a cultural bias--so we're juggling those at the same 
time we're trying to get to significance. And so it's a matter 
of--and not having materials, because our textbooks and 
everything are from the lower 49.
    So not only do you have to have local people with a deep 
understanding and ability to articulate the cultural knowledge 
and help the teachers in those things. You also have to have a 
really rigorous understanding of content area, because the 
reason you teach from a textbook is that if you can't look out 
the window and see the math or see the science or see the 
concepts in the world around you, because it's a foreign world 
to you, and you don't have really great depth of understanding 
of the knowledge, then you rely on the textbook.
    I'm in North Slope now, but years ago I was down in the 
Lower Kuskokwim area. And I mention it because I was trying to 
help a teacher. His textbook said that the largest wetlands in 
the United States were in Louisiana. And I was sitting in the 
Lower Kuskokwim area, in the Yukon-Kuskokwim Delta. But the 
teacher I was working with didn't know that the textbook was 
wrong.
    But back to the Federal Government. The emphasis on NCLB 
and all your efforts are really focused on making it more 
flexible, making it more responsive, making it so it's not one-
size-fits-all for Alaska in terms of the remedies, are 
critical. And so it's a huge challenge, and that's one of the 
reasons it hasn't been done in all these years. And teacher 
retention is another issue. If you don't have people that live 
there and understand and can work on it and build it, then 
that's--so all of those things lead into it.
    And then not directly related, but since you sort of opened 
the ground to me, another thing I would refer to is the 
bilingual laws and the current definitions. If they would 
include heritage language as an asset rather than a deficit--
because the current labeling is hurtful, not necessarily 
helpful. So I'll put that in there just in our work to talk 
about.
    Senator Murkowski. Rosita, if you want to, jump in on how 
difficult it is to build a culturally relevant curriculum.
    Dr. Worl. Well, first of all, I have to say I have great 
appreciation for developing curriculum. I came from the 
university system, where professors develop lectures. And so 
that's what I thought I would have to do when I came to the 
Sealaska Heritage Institute and do curriculum. I had no idea 
about the complexity of doing curriculum. But I will say that 
with the adequate funding, we were able to do that.
    And I don't know that it's that difficult. I mean, it is 
complex and I certainly had to hire educators to come in and 
help me. But we had to have our Native people there as well. 
And I'm an anthropologist by training, so much of the work that 
we were doing centered around cultures that I hadn't studied. 
But I will tell you that even if you have your educators, in 
trying to meet all the different standards, you have to have 
the knowledgeable Native person there who is reading that and 
making sure that all of the nuances, that Native culture, is 
represented.
    We have developed curriculum that we use extensively in our 
schools. I can appreciate that teachers are always so busy, and 
I understand now that you have to have almost everything all 
there for them because they are so busy. They have so many 
requirements. And what I found out that was best was we 
developed a curriculum, but we also developed supplemental 
material that could be made available to feed in as they were 
doing curriculum. So it was a two-step process for us.
    But then we also had to go and try to grab the teachers and 
have professional development so that they could use that 
curriculum material. So we count that as part of a major 
project. We not only have to do the curriculum development and 
the supplemental material, but we hold professional development 
for the teachers so that they can use it.
    The other thing that we have done is everything that we 
have produced--and I would invite school districts from around 
the State to look online. Everything that we have done, we have 
put online. And I will tell you that we get calls from all 
across the State wanting to use our curriculum. It's there for 
people to use.
    But it really is a matter of do we have the funds to do 
that. And when we first started to get involved, we saw the 
Alaska Native Education Program Act or ANEP, and we put in for 
grants. We were very frustrated when we wouldn't get grants. 
And I think we have a good team of grant writers. But what we 
found when we really started to do the analysis is that there 
was this inequity in the allocation of funds.
    I think we've sent to you some material that shows that up 
until last year, we were receiving 15 percent going to Alaska 
Native organizations. This year, we're up to 30 percent. And 
I'm sorry, Carl, if you lost yours, but I'm glad it's going to 
lead to systemic change and you're going to do that. But Native 
people have to be involved in that. And I think if we become 
good partners--and it's been a two-way learning process for us.
    I will tell you that I am chagrined sometimes when I see 
somebody going to Native organizations. I know they're well-
meaning, but I will tell you they do not know--if they're 
Anchorage-based and they're going to be working in our 
villages, I have great concerns about that. And I try to 
monitor it to make sure that there's not harm coming to our 
children because they don't know the communities, they don't 
know the families.
    We can call immediately to a community and find out, what 
are the issues there and where are the problems. And, I'm 
sorry, we do have families that are not functional, and we 
certainly don't want to have any of our children put into that. 
So I just can't stress enough that I think we have to be at the 
table in trying to work on curriculum, trying to help out with 
the education of our children.
    We started a language program about 12 years ago. I worked 
to help the Alaska Native Language Center get established. And 
in the 30-some years that it was established, we had two 
Tlingit people who came out of their programs, and neither of 
them were working in our language restoration.
    So going in, I said, ``OK. What do we do to do language 
restoration? '' And I will say, Carl, we went to Hawaii and 
learned the model there. But then we found that we had to take 
it to a different level because we didn't have the teachers and 
we didn't have the curriculum. So we had to start focusing on 
that. But maybe we didn't know--I'm not a linguist, and I 
hadn't been involved at the Alaska Native Language Center. But 
I knew that model wasn't working for us.
    So we've had to develop our own models, and sometimes it's 
been hit or miss. We have a summer program and actually wanted 
to start off with just focusing on Native males. But it was 
like the same problem. We couldn't get the Native males to come 
to those programs.
    Now, we've slowly built up the equity, so we have gender 
equity. We always get in trouble at Sealaska because we hire 
mostly women, and I always say we hire the best. But we know we 
need to be concerned about Native male education. And so right 
now, we're looking at ways that we could do that. I was hoping 
we had the AFN implementation funds, but, unfortunately, I just 
couldn't get any of the funds extricated to focus on Native 
men.
    And this is why I think it's so important to go back to the 
culture. We went and we asked our men, ``How did you train the 
young men? Why aren't our Native men doing well today? '' And 
in my naivete as a Tlingit and as an anthropologist, I thought 
it was physical strength that our men were trained in, just 
physical strength. So we have a council of traditional scholars 
that oversees our curriculum development. All of our program--
we have to let our council of traditional scholars look at 
that. And they are traditional leaders. They're clan leaders.
    And I found what I was missing was strength of--it's not 
only body, but mind and spirit. And they taught us some things 
that--sometimes I didn't know if I liked it because in the 
traditional training, when some men weren't doing so well, they 
would say, ``There goes a man who was raised in the arms of his 
mother.'' And the discipline was strong, hard training. They 
used to put rocks on their ears, like earrings, to remind them 
they had to care for their family.
    So we've tried to figure out how do we take that kind of 
traditional training and integrate it into the school. We want 
academic success. But we know if we're going to have academic 
success, then it has to be relevant to our kids. Right now, we 
participate in the university listening session, and we found 
our kids aren't doing well in math. I kind of knew that, but 
when I heard we're not getting our Native students into 
nursing, we're not getting them into engineering, we're not 
getting them into finance--because of math. They weren't doing 
well in math.
    And I know our teachers--we have a good teacher training 
program, Preparing Indigenous Teachers for Alaska Schools 
(PITAS), in southeast Alaska. But our students were taking 3 
years just to get through that Math 106 or something like that. 
They could not pass that. So this year, we're developing a 
curriculum on culture-based math. And we've got people who are 
expert in that area. We're going to be teaching math around 
basketry, around construction of canoes.
    So it can be done, but, unfortunately, it does require 
those resources. And the major barrier that we see that we need 
to address and that I'm hopeful--I know your office has tried 
to be helpful on it, and I think the law is there. But I think 
it's the implementation in the Department of Education. And I 
know Karen has tried to work with us in trying to pursue that 
to make sure that we have more equity there. But I think we 
need to take a closer look at it.
    Senator Murkowski. And we want to do exactly that with you, 
and I think we all recognize that we're dealing with tough 
budgets. And as pies shrink, there's typically more competition 
for that pie. At the end of the day, I think what we need to 
keep in mind is that ICE may lose the grant, but knowing that 
we're working together to pick up that work and ensure that the 
good things that were going on are continuing in terms of the 
level of engagement--how we best meet the needs of our Alaska 
Native students that are out there.
    I've had a chance to be in the school there in Juneau at 
Harborview. Selina is my namesake, if you will. But to have an 
elder working with the kids, teaching them song, teaching them 
dance, is what I think we would like to see everywhere. You can 
kind of understand how you can do it in a place like Barrow. 
And even though you've got such a huge school district, you're 
not this big melting pot that Doreen is dealing with, to have 
8,000 Native students from all over the State.
    How we can provide for that culturally relevant curriculum 
when there's this mindset that I'm dealing with in Washington, 
DC--a Native is a Native, just like a Hispanic is a Hispanic. 
You tell that to a Cuban-American, that he's the same as a 
Mexican-American, and they look at you and tell you you're 
crazy.
    Well, the same holds true with our Native population. And 
yet there's no real acknowledgement--Inupiat and Athabascan or 
Tlingit--it's a good thing everybody is still sitting together 
here. You know, there was a time when the relationships were 
not all that good. But it speaks to the differences and how we 
do right by our kids when we're talking about culturally 
relevant, how we make these connections.
    I'd like everybody to pivot just a little bit to the 
technology side--because one of you mentioned that this can be 
the equalizer out there--and how you can take concepts as basic 
and as historical and age-old as going out and hunting for a 
whale and using technologies that we have at our disposal to 
make this meaningful for these kids. Now, there's a great 
barrier for us here in Alaska. And I'd like you all to talk 
about where we really are.
    I've been in schools in the State where they take me into 
the computer room and they show off their computers, but not 
one of them is plugged in because they don't have the broadband 
capacity and things just don't work. So the kids have the 
machines sitting there but nothing else. Talk to me a little 
bit about where we are with technology.
    Chris and then Doreen.
    Mr. Simon. Thank you for the question, Senator. All I can 
tell you is a story about when I was the principal in my 
hometown of Huslia. We had a bunch of seniors there, and I met 
with every one of them at the beginning of the year, because my 
goal was that every senior leaving Jimmy Huntington School in 
Huslia was going to be doing something after high school. 
Whether it was postsecondary training, the military, college, 
or a job, they were going to be doing something. I wanted to 
set that bar for them.
    And so I met with every one of them, and they told me what 
their goals were. Then I turned around and sent them to 
Fairbanks for the Career and College Day. That's what it was 
called. They came back with brochures, and I sat down with them 
again, and we talked over their plans. There was an itinerant 
counselor because their school is so small. I sat down with--I 
think it was a lady at the time--and told her the goals of our 
students and that we needed to start the paperwork process now.
    She was itinerant so we were going to do it by video 
conference. We tried that, and because it was always going down 
or there was all this freezing, it didn't turn out very well. 
I'm happy to say five of the six seniors did go out and do 
something after that year. But just the whole idea of 
broadband--we're lacking there.
    Senator Murkowski. Doreen.
    Ms. Brown. We really are diverse in Anchorage, and we have 
people from all over the world and, specifically, from all over 
the State that are indigenous, so it is difficult. Not only 
that, but we also have between 96 to 110 different languages 
spoken at one time in the Anchorage School District. It's the 
second most diverse city. Honolulu is actually No. 1.
    So with technology, we're always looking for ways to 
incorporate that. And I'll just share one particular story. 
This is when iPods were really big. I think we have to now move 
to iPads. But we had carts of iPods. And what we did was we 
took free resources off the Internet. We did different dances 
from across the State. And we incorporated this in our summer 
program, sort of piloted it in our summer program, and then 
pushed it out to the music teachers and they loved it, because 
we can't get every dance group from all over the State.
    And it was so powerful to see the kids just sitting there, 
each individually with an iPod, to be able to see the different 
dances and to do like a Venn diagram with the differences and 
the similarities and the history of that. So that's just one 
way that we've utilized technology. We use it all the time, 
even for AFN. We have Google Docs. We have it on our blog. We 
shared information--we did a presentation on what is a 
resolutionist.
    We did a lot of prep work with our students and also shared 
that with AFN or first Alaskans so we could build a data bank 
of--like a scavenger hunt that we did for an elders youth 
conference. But we're always looking at things, and, really, 
we're just a bunch of borrowers, so I'm writing notes down as 
people are talking.
    Senator Murkowski. It's called collaboration.
    Ms. Brown. Well, I am a true educator, so we really are 
borrowers. So I look forward to hearing what other folks have 
to say. Thank you.
    Senator Murkowski. Sonta and then Carl.
    Ms. Roach. I'll be brief. I have nothing but good things to 
say about the technology in the schools and the video 
technology conferencing, VTC, as we say. But it's really helped 
bridge a huge gap, I think, in access to education, especially 
when we're having issues with getting highly qualified teachers 
teaching some of those core content courses like math, 
especially in a school district like ours that has three very, 
very small schools. And maybe others can talk about other 
school districts.
    In my former job with FEA, I had the privilege to go to a 
couple of school districts, Lower Kuskokwim School District and 
North Slope Borough School District, and to go into a classroom 
and see students taking a class, and it was rich. It was 
curriculum rich. I mean, it was good content and instruction. 
And I think that it really does help bridge that gap.
    And then the language program that's available on the 
Internet in North Slope Borough School District is amazing. And 
I've seen a couple of the students actually--you can click on a 
dialect, so it's more local-based, I think. And I just think 
that's amazing to see that now.
    Ms. Cowan. Let me pick up on that, if you would.
    Senator Murkowski. Go ahead.
    Ms. Cowan. The VIVA program is wonderful, and we do it in 
the different dialects, so our technology is significant. But I 
remember 10 years ago--I think it was then Secretary Paige, 
when NCLB was first passed--so back to your Federal 
Government--came up here. And the question was, ``What are we 
going to do about small sites? '' And the answer was distance 
delivery.
    And we are still trying to meet that vision, and broadband 
and latency are huge issues in our area and other areas of 
rural Alaska, which really prevent us from--I mean, VIVA is 
wonderful, but we base it on our own computers so we don't have 
to get into the net. And the more robust--which is what's 
happening--the media becomes, the more crippling our 
technological limitations become.
    We just got a new VTC system. We're thrilled about it. But 
the curriculum program I told you about uses Adobe--I mean, 
Rubicon Atlas to create the units, and we can't have the video 
conferencing at the same time that the teachers are on their 
computers on the Internet, because one will shut down the 
other. So the idea was they were all supposed to be on--
connecting together and then being on the computers. And we 
have only one or the other. We've got to turn one or the other 
off. So the broadband and latency are still crippling and 
become more so the more robust the technology becomes.
    Senator Murkowski. I see what you're saying.
    Carl.
    Mr. Rose. Thank you, Senator. I'll try to make my comments 
brief. I heard a wise man say one time you're never trapped 
unless you're trapped in your own mind. And I think many times 
we see barriers and we consider that to be the end of the road. 
The fact of the matter is that broadband is an issue for 
everyone.
    But did any of you know that there are 32 school districts 
that are currently involved in digital learning and 12,640 
units are out there. We were dependent heavily on broadband, 
but we were able to use satellite, nano-links, and microwaves 
to take advantage of technology as it was in 2006.
    How many of you knew that the iPhone came on in 2007 and 
the iPad came on in 2010? The changes in technology have 
allowed us to reduce our dependency on bandwidth, not that it's 
not important. But we can contain instruction in the classroom 
through the use of iPads by networking through a computer for 
the teacher that we can either store, No. 1, within the 
equipment that we have; No. 2, within the servers that we have; 
or, No. 3, on Google Docs.
    The world is really wide open to us. If we wait for 
bandwidth, we do ourselves a disservice. We should struggle 
because, as you heard from your mother, if you didn't struggle 
for it, it's not worth very much in terms of being meaningful 
to you. We should do whatever we can to give our kids what we 
can in terms of digital technology. It's available to us. Do we 
have everything we need? Not yet. But if you were to look to 
any other area in education for our kids, you are not going to 
find another opportunity greater than digital technology.
    Let me give you an example. Is Melissa Borton in the room? 
She is a school board member from Kodiak. She's the executive 
director of the Alutiiq Native Corporation. She's carrying 
around an iPad right now where they have the Alutiiq talking 
book. We worked with the Alutiiq region and developed a talking 
book in the Alutiiq language. It's on an app, and she's 
carrying it around right now. And there are other areas of 
language that we want to be able to do.
    Now, just think about this. If we were to work with the 
Alaska Native Cultural Center and all the documents that they 
have, put it in context, and place them on iTunes U, which is a 
repository for content, that could be available to everyone. 
I'm not going to go any farther, because there's so many 
opportunities that are available that we need to avail 
ourselves of.
    But if you're thinking that bandwidth is the problem and we 
can't go any further, you're badly mistaken. There is a lot 
that we can do. We should do everything that we can. I'm sorry 
for taking all your time.
    Senator Murkowski. No, it's a good reminder to us, because 
I think we do kind of lock ourselves into the technology that 
we have right now, today. But how quick did it take us to get 
to the iPhone 5? I don't have one. But just think about how the 
generations move so quickly, but it all takes money, just about 
money. And, unfortunately, that's one of the challenges that we 
face--making sure that our kids have access.
    I was out at the Kalskag school with the principal of the 
year there and walked into a middle school classroom, and all 
the kids are working on their iPads. And as he reminded me, if 
we are not communicating with our kids in the way that they're 
talking, through their Smart Phones, we're going to be the ones 
behind. It's no wonder that they're not going to be following 
what's going on at the front of the room if we're not catching 
up with them. So technology is something that I think we always 
key in on.
    I want to ask a question about--Rosita? Go ahead.
    Dr. Worl. May I comment on technology?
    Senator Murkowski. Absolutely.
    Dr. Worl. Thank you. Well, I'm an advocate of it. I totally 
support it. We are hoping to include that in our Walter 
Sobeloff Center. I actually have a staff person today down in 
San Jose meeting with Google folks to talk about--they want to 
know what it is that we need in terms of technology. But the 
point I want to stress is we also need to make sure that we 
have Native people involved in it.
    I have two examples. Someone was trying to use one of our 
recordings to teach language and oratory and about our culture. 
But, unfortunately, what they did was they tried to repeat 
this. It was a recorded piece of oratory from Hoonah. But what 
happened was that they ended up calling up the spirits. And so 
we ended up having to rush into that classroom to try to 
restore the balance, the spiritual balance and the social 
balance. The teacher was well-meaning but just didn't know 
enough about the culture to be able to protect our cultural 
values.
    Our clan stories are owned by clans. And we wanted to be 
able to use it in a performance at Perseverance Theatre, and we 
brought it to the Council of Traditional Scholars. At first, 
they were just adamantly opposed--no, you can't do that. And we 
argued that the younger people need to have this. So we ended 
up arguing with the elders about how we were going to use it. 
In the end, the elders said yes, the council said yes, but you 
have to have all of these protections around it, that it is 
clan-owned.
    So then we brought it to Perseverance Theatre. And the 
script writer, the playwright, wanted to have the copyright, 
and we said, ``No, you can't have the copyright.'' So we ended 
up going through a process where we negotiated out, to protect 
the script writer, the playwright's rights and our clan rights. 
So these are the kinds of things that have to be mediated as we 
move into these kinds of things.
    Senator Murkowski. That's kind of a segue into the last 
question I wanted to throw out to you. I think we recognize 
that we can have great curriculum, we can have great 
technology, but, ultimately, it comes down to great teachers 
and teachers who know and understand that this is culturally 
appropriate or, to use Peggy's example, knowing that Louisiana 
doesn't have the most wetlands in the Nation.
    What role do you think, whether it's the districts, whether 
it's the communities, whether it's the parents--we haven't 
really talked about the parent piece, which is so key. But we 
can bring good energetic teachers in, particularly out in 
remote villages. We have a tough time retaining them. We have a 
tough time keeping them.
    To what extent does a school or a school district need to 
have a--I don't know if I want to call it a planned process, 
but just some kind of a process where you have elders that sit 
and visit with them, talk with them, those that are raised 
within the community, to not only make them feel welcome--
that's one thing--but to really kind of act as a mentor to 
these new teachers. They're coming in, and they've got the 
academic credentials, but that's not what it's all about 
necessarily.
    Sonta, with your experience with Alaska Future Educators--I 
don't know. Maybe this is something that is already done. But I 
worry about the support that we give to our educators who want 
to try to do the right thing but perhaps just step in it 
inadvertently because they don't know. How can we do a better 
job working with them?
    Ms. Roach. This is something that I think a lot of our 
schools face and something that definitely Future Educators--
the main goal of it was to grow more educators of our own 
because of the high turnover rates and because of those 
teachers leaving because of culture shock or because the 
amenities aren't what they're used to in the communities. And I 
think as much prep that the school district can do, that the 
community can do, the better.
    I know that some districts have things in place that help 
that process by having maybe their school board members helping 
with the process of selecting teachers or the now requirement 
to have that course, the multicultural education course, for 
new teachers that come into the districts. But at the local 
level, I think it's critical. And you hit on a good point of 
elders perhaps being mentors. I don't have solid examples of 
what works. Maybe others do.
    But I think that's a great idea for having elders in there, 
their tribal leadership, and that solid partnership between the 
tribal government and the school is huge, because the tribes 
also have funding that can go toward education. And the more 
they can communicate, I think, the better.
    Senator Murkowski. Carl.
    Mr. Rose. I just want to comment that, one of the things 
that we have some difficulty with is understanding the issues 
at hand. And I will share with you this. I was in an audience 
maybe 15 or 20 years ago where some gentleman got up and said, 
``I'm really sensitive to your issue.'' And somebody else got 
up and said, ``Sensitive? I don't want you to be sensitive to 
my issue. I want you to understand what we're talking about, a 
keen understanding of what we're doing.''
    Somewhere between there, our school districts and the 
programs that they provide may not be hitting the mark because 
we don't have a better understanding of what's needed. So what 
I told you earlier--this system of local control is designed 
for you, the people. If we don't take advantage of it, we can't 
expect our systems to function like we want them to.
    So if you take anything away from here--democracy is 
chaotic. But representative government, as a republic, is a 
much more effective way of doing our business. What if 
everybody wanted to run the school? It can't happen. So you 
elect your leaders to do it on your behalf. So I would share 
with you, if you want a better understanding and a better 
product of your needs out of your schools, you've got to 
organize to be able to bring that to the decisionmakers so they 
can effect policies that serve your needs.
    Thank you, Senator.
    Senator Murkowski. Doreen, how do we get more of you to 
address the needs if there's so many Native students in the 
Anchorage School District?
    Ms. Brown. Well, I practice what I preach, and I always 
have mentors. In our summer enrichment program, in the summer, 
I hire high school students. Sorry on that, but I actually pay 
them a little bit more than other people because we may not 
have them for as long, just to entice them to come and 
participate in our summer enrichment program. They want to 
work. They may have a desire to go into education, so I nurture 
them along with my staff. And they're working with our Native 
students. So that's one way.
    And I always mentor people that are working with me. We 
have to do that. I mentor my cousins. It's about living, 
eating, breathing what we're supposed to be doing, and I do 
that. So I have somebody right now that I'm mentoring for 1 day 
when I decide to do something different. It's a constant thing, 
and we just have to do that.
    I want to also touch on the teacher training part of that. 
There's a couple of things that I'm really noticing. Because we 
have a new superintendent, he needs training. He is coming from 
Florida. He needs training. Our school board needs training. We 
have huge communication issues. So who's doing that? Who's 
doing that in your communities and in other communities? We 
talk about teachers, yes, but it's the leadership that's 
working with the teachers that we need to address as well, and 
I don't think we're doing a really good job of that.
    The other part of that--I'm hopeful--within the Anchorage 
School District, we're looking at our evaluation process. And I 
am so excited that they are actually considering two areas that 
are actually culturally responsive standards, to look at that 
and start assessing teachers if they're using Alaska Native 
cultural standards within their classroom. I mean, I'm cheering 
for that. Let's make it happen.
    And then the other thing is let's go down to the child 
level and also the family level. We have to make sure and say 
this to our kids, ``It's your time to learn. Make it happen. 
This is your opportunity''--just constantly giving that 
message, because it's their responsibility as well as ours.
    Senator Murkowski. Good words.
    Rosita.
    Dr. Worl. Thank you. First of all, I lived in Barrow for 
some time. I did my field work up there, and I saw teachers 
coming up there and I saw the trauma they went through. And 
I'll tell you, they do go into culture shock. So I know that 
it's a serious problem. I just attended--the university 
sponsored an education workshop just for teachers, or a session 
on what could we do about these issues.
    And I would say, first of all, we need to hire Native 
teachers that have gone through the system and are not hired by 
the school district. And I will tell you that that's a problem. 
It is a problem that Native teachers who have gone through our 
university system are not hired as teachers. I know that for a 
fact, and I beat up the school district for not doing that.
    It is a reality, and I kept telling the university we need 
to work with the school district to find out why they're not 
hiring our Native teachers. We've tried to take care of those 
Native teachers when they're not hired by the school district, 
pulling them into our program so we could keep them in 
education. As much as I need help, I will never take a Native 
teacher out of the classroom to help us in our programs, 
because I know they need to be in that school district.
    But I will tell you, Carl, that the schools do not always 
hire Native teachers. And so one of the things we did was we 
got on the employment--where they hire the teachers, so we sit 
there, and we now have an input into that. And I think it's 
unusual--I didn't know it was that unusual where Native 
organizations have these MOAs with the schools so that they can 
participate in that area.
    The other thing that we did was with the MOA, and even 
before we signed the MOA, we started doing orientations for 
teachers. We didn't have the program money, but we squeezed 
things together where we were able to do that. Some of our 
villages brought people out to their culture camps. And in our 
summer camp, we try to bring teachers in there, and we've had 
teachers coming into our leadership camp to participate so that 
they can get exposed to the culture, to the environment, and to 
the realities of Native children.
    The other thing that we did--we started having orientations 
for educators who teach our teachers. And I think that was the 
first for us where we had about 25 faculty members from the 
University of Alaska Southeast come in to Sealaska for--we had 
a 2-day training session. Maybe it wasn't enough, but we 
brought them there into the board room, and then we took them 
out in the field.
    The other thing that I am determined that we're going to 
start doing now is to look at--I know we have teacher aides in 
our villages. And in our region, I think I counted that we had 
at one time--no, it was teachers and school aides--we had only 
80 in all of the southeast school districts. So we are going to 
be developing a project where we can start working with the 
school aides people to do career development for them.
    The other thing I think that we could do that we've found 
is successful in other areas is internships. And we are 
producing right now--we'll probably have more Native archivists 
than we will have Native archives, but we're doing that. So 
we're doing that in other areas, and so I think it's a good 
approach that we might want to explore. Those are concrete 
recommendations that I could offer.
    Senator Murkowski. Those are good.
    Peggy or Chris?
    Ms. Cowan. Thank you. Actually, you have a legacy on the 
North Slope, so thank you for that. It shows that we are one 
State and appreciate it.
    The first goal of the board's strategic plan is curriculum 
and teaching through the Inupiat language, history, and 
culture. The second goal of the board's strategic plan is 
teacher retention and professional development. And so 
everything that is said here is very important to the Slope.
    But I would like to do a little bit of a segue to your 
allusion to the community and partnerships and parents and 
those things. I think one thing that I haven't mentioned but 
was introduced really with Dr. Worl's and Carl's introductions 
when they talked about identity. Student identity is really 
what a lot of this is all about. And identity is just critical 
in the system, and one of the big issues is that students don't 
see themselves in the system. But, anyway, it's student 
identity at so many levels.
    It will help teachers, hopefully, when they become, 
hopefully, Native teachers for the future. But the white 
teachers there now--if the community contributes to the 
education of the youth through helping with that identity. It 
is just so basic and so core to the work. And as the students 
get a sense of their identity, then they thrive in the school 
system, and then the teachers can better understand them and 
their identity and work it into the culture. So just the 
community partnership identity I see as really crucial.
    Senator Murkowski. I think Rosita said the essence of being 
Native is not being taught in the schools, and that's critical.
    Chris, did you want to add anything to this conversation?
    Mr. Simon. Sure. Thank you very much. We're talking about 
teacher retention, and when I was a superintendent, there was a 
problem in the district where I was the superintendent also. So 
I did an exit interview with every teacher or every district 
office person that was leaving. And there were a couple of 
things that came out of it.
    One was the new teacher orientation, where the new teachers 
to the villages showed up at the district office 3 days early. 
And we brought them out to the village ourselves and showed 
them the post office, showed them the stores, and showed them 
the tribal offices so they could get a sense of what it's like 
in the village before we just put them out there and say, 
``Start teaching.'' The only problem with that is we ran out of 
funding. So that's what I would have to put in a plug for the 
Federal Government, a little bit of funding for new teacher 
orientations across the State.
    And also housing--a lot of our teachers were leaving after 
2 or 3 years as they started a family and their families were 
expanding. They wanted nice housing for their kids. So I'm 
happy to say Alaska Housing Finance Corporation stepped up and 
is providing help with housing. But if the Federal Government 
could help with that, that would be great also.
    Senator Murkowski. All absolutely key. I'll never forget 
when I took Secretary Paige out to Savoonga, and we were 
talking with the principal there. And the principal mentioned 
that he slept in the broom closet, and that they had cleaned 
out all the mops and buckets and that was where his mattress 
was. And Secretary Paige was horrified, just horrified. He 
couldn't believe that.
    And the principal was pretty nonplussed about it. He said, 
``Well, it's better than the elementary second grade teacher 
who slept in her classroom and she took one of the gym mats 
out.'' And it was from that conversation with the Secretary 
that we actually had a meeting of five cabinet members of that 
administration to look at the issues and the barriers that 
surrounded delivery of education in parts of rural Alaska.
    And we've made some good headway with the teacher housing. 
But I think we all recognize that this is an area of great 
need. And, again, you don't see this in the discussions back in 
Washington, DC. Why would you possibly need to provide for 
things like teacher housing?
    We could go on all afternoon. I think the sun is setting 
out there. Sonia is not really like Vanna White in the back 
holding a card up. I think she's trying to block the sun for 
everybody, and she has moved down the aisle here.
    But this has been a good discussion. We clearly need more 
of it. We need it at different levels. We need it in different 
areas. But I'm glad that we have put some of this on the record 
as part of the Health, Education, Labor, and Pensions Committee 
to understand some of the challenges, some of the barriers that 
we face, but, clearly, some of the opportunities that we have 
and how we embrace them.
    I'll just let those of you who have been on the panel and 
those who are still with us know that we are going to try to 
put a little focus on what is going on within Alaska education, 
particularly the rural piece. We are putting together what 
we're calling the Alaska Education Library. And what I'm asking 
folks to do is to share.
    You said you were a borrower, and you're jotting down your 
ideas. What I'd like folks to do is to compare notes, share 
your stories, put your ideas out there, email me with your 
innovative methods. Let's put them all together online. Any 
Alaskan, any Alaskan out there at all who has either a success 
story or a story that kind of talks about just some of the 
matter of fact things that we're dealing with and how we're 
dealing with them on a daily basis--let's share how these 
innovations have improved student success. You can email them 
to me at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="75141914061e14101106001616100606351800071e1a02061e1c5b06101b1401105b121a035b">[email&#160;protected]</a>
    And so this is for tribes, this is for schools, this is for 
Native organizations, this is for teachers--anybody who's got 
an innovative and successful idea to share. And then once we 
get these entries received, what we'll do is we will post them 
on our Web site. I've got a new page that we've created, and 
this is called the Alaskan Education Library. If you go to my 
main Web site, www.murkowski
.senate.gov, it's located under the students tab at the top of 
the homepage.
    So, hopefully, this can kind of be a portal to collect 
great ideas, because I think we do recognize we are challenged. 
But as Carl has reminded us, let's not be limited by the 
problems that we had yesterday or last year. Let's figure out 
how we advance and move forward. So share some of these things 
with us. We've got a lot to work on.
    Rosita, I appreciate your comments and the suggestions that 
you have given me, as well as Gloria O'Neill, on how we can 
really look to the Alaska Native Education Equity Program in 
terms of making sure that that opportunity for grant funding 
remains solid, remains viable, and really rooted to its initial 
purpose. So we've got some work to do on that. We will do that.
    Clearly, the conversation hasn't stopped here. We've got a 
lot more to work on. But I thank those of you that have given 
me the time here this afternoon.
    Chris, Peggy, Rosita, Doreen, Carl, Sonta, thank you for 
your leadership in these areas. I've also asked Gloria O'Neill 
to--Gloria, as I'm sure everybody in the room knows, is 
president and CEO of Cook Inlet Tribal and very involved with 
CITC and the work with the Anchorage School District. So I've 
asked her to submit testimony as well.
    [The prepared statement of Ms. O'Neill follows:]
       Prepared Statement of Gloria O'Neill, President and CEO, 
                       Cook Inlet Tribal Council
    Senator Murkowski, thank you for the opportunity to submit this 
testimony for the record.
    My name is Gloria O'Neill and I am the president and CEO of Cook 
Inlet Tribal Council (CITC), an Alaska Native tribal non-profit 
organization which serves as the primary education and workforce 
development center for Native people in Anchorage. CITC has been 
designated tribal authority through Cook Inlet Region Inc., organized 
through the Alaska Native Claims Settlement Act and recognized under 
section 4(b) of the Indian Self-Determination Act and Education 
Assistance Act, P.L. 93-638. CITC builds human capacity by partnering 
with individuals to establish and achieve both educational and 
employment goals that result in lasting, positive change for 
themselves, their families, and their communities.
    CITC's programs serve Alaska Native and American Indian people in 
the Cook Inlet Region, which includes Alaska's most urbanized and 
populated communities, and is home to an Alaska Native/American Indian 
population of more than 40,000, approximately 40 percent of the Native 
population of the State of Alaska. In Anchorage alone, the Native 
population is approximately 22,000, about 20 percent of the total 
Native population in the State. Anchorage is the fourth largest Native 
community in the Nation. CITC's programs address many of the social, 
economic, and educational challenges faced by Alaska Native people.
    Our mission is to work in partnership with Our People to develop 
opportunities that fulfill Our endless potential. All of CITC's 
programs are rooted in the understanding that true self-determination 
is based in self-sufficiency and the ability to take responsibility for 
one's own success. CITC has a 25-year history of providing programs 
that effectively meet the challenges of inadequate education, 
unemployment, poverty and addiction.
    Alaska Native education is in a deepening crisis. Alaska Native 
students have historically been subject to significant risk factors 
including under-performance and under-engagement in school, low post-
scholastic employment and income, over-representation in the justice 
system, and increased rates of alcohol and drug use, as well as 
suicide. Alaska Native educational achievement continues to fall far 
below national norms, as reflected in the fact that performance on 
standardized tests is low and Alaska Native students are twice as 
likely to drop out as their non-Native peers--this, in a State with a 
school dropout rate that is already one of the highest in the Nation.
    Since 2003, CITC has been the recipient of directed funding 
authorized in the Alaska Native Educational Equity, Support and 
Assistance Act, now known as the Alaska Native Education Program 
(ANEP). This funding provided CITC, as a Tribal Organization, a 
critical resource and unique opportunity to develop creative solutions 
to the problems that plague the school districts. When ANEP funding is 
granted to Alaska Native organizations (ANOs), it creates opportunity 
for systemic change. For example, CITC created Partners for Success 
(Partners) with our ANEP funds. Partners is a strength-based, 
culturally focused educational support service implemented in 
partnership with the Anchorage School District. The program, which 
functions as a school-within-a-school, is an innovative and 
comprehensive program dedicated to growing college and career-ready 
graduates from kindergarten through 12th grade. This unique tribal-
district collaborative relationship allowed CITC to hire our own 
educational teams, including highly qualified certificated teachers, to 
provide core content academic classes to Native students within the 
public schools. CITC's programs recognize the need for a continuum of 
educational services from elementary school through high school. CITC 
classes follow required school district curricula while also 
interweaving cultural content and methodology, and meet or exceed 
district and State standards in a variety of content areas such as 
language arts, math, science, and physical education. Our program 
served approximately 700 K-12 Native students and their families 
annually. Our programs focused on increasing literacy and math skills 
as well as offering supplemental programs in high-level mathematics and 
science classes, health and wellness. Our bold vision was designed to 
improve overall academic achievement while decreasing the Native 
student dropout rates. Accountability by demonstrating outcomes and 
constantly retooling programs to achieve our goals are key components 
for CITC's strategy.
    CITC has been involved in educating Alaska Native students in our 
service area for over 10 years. From the start, CITC faced an uphill 
battle. The disparities were and remain extremely daunting. After 
nearly a decade, the partnership provided a number of critical, if 
perhaps not surprising, findings:

    <bullet> CITC students had better outcomes on the High School 
Graduation Qualifying exam than other Native students.
    <bullet> In schools where CITC taught Language Arts at the Middle 
School level, our students did better on the Standardized Basic 
Assessment tests than their peers in the same subjects.
    <bullet> Students enrolled as seniors in CITC's high school program 
at Bartlett High School had a 100 percent graduation rate for the last 
2 years.
    <bullet> CITC students performed better on Standard Based 
Achievement Tests at all grade levels.
    <bullet> Small class sizes really do make a positive impact on our 
population. Students enter our classes at very different proficiency 
levels. To make our students successful, teachers and teaching 
assistants need to be able to meet students where they are and advance 
them from that point.
    <bullet> The ``achievement gap'' starts early. The outcomes for 
Alaska Native education are dramatically worse than they are for non-
Natives. The learning and knowledge disparities begin to be 
institutionalized as soon as Alaska Native students enter mainstream 
education as kindergartners.
    <bullet> CITC elementary school students reach reading proficiency 
in kindergarten and first grade if they are working with our teachers.
    <bullet> Creating school-to-jobs pipelines, through programs that 
increase student engagement, academic performance, and career-readiness 
is a key to changing outcomes.

    The ANEP funding that CITC received was the essential catalyst that 
allowed us to create such a unique and effective partnership with the 
Anchorage School District; without it, the partnership would likely 
never have happened.
    The late Senator Ted Stevens originally authored the Alaska Native 
Education Equity, Support and Assistance Act to create equity in 
education for Alaska Native people. With the exception of a small 
amount of Johnson O'Malley funding, Alaska receives no Bureau of Indian 
Education (BIE) funding. In other States, BIE funding is available only 
to Tribes so that they can create their own education programs for 
their students or their own schools. In Alaska, the State is 
responsible for educating all Alaskans, including Alaska Natives. 
Historically, the State's and school districts' track records on 
educating Alaska Native students are poor.
    In response, the Act sought to ensure that Alaska Native people 
were maximally involved in the planning and management of Alaska Native 
Education Program. We appreciate your keen understanding of how 
important this program is for the success of Alaska Native students. We 
are especially grateful for your support for the program over the years 
when it has been attacked as an earmark and/or as duplicative of other 
programs.
    We are increasingly concerned that the Alaska Native Educational 
Equity, Support and Assistance Act is being implemented in a way that 
paying inadequate attention to the most important principle of the 
authorizing legislation: Equity. We hope to be able to rely on your 
assistance to address our growing concerns. Over time the program has 
come to be known as the Alaska Native Education Program (ANEP). We 
would like to put the equity back in the Alaska Native Equity Program 
and to ensure that implementation and reauthorization of this Act are 
realigned with the original intent of the law.
    The statute provides a clear priority to Alaska Native regional 
nonprofits or consortia that include these organizations. However, this 
priority has being increasingly undermined in the RFA's by other 
priorities identified by the Department. Programmatic priorities and 
novice applicants have been given greater priority than the legislated 
priority for Alaska Native regional nonprofits (ANRO). While the ANEP 
statute allows the Secretary to make grants and enter into contracts 
with non-Native organizations, it requires that Local Educational 
Agencies (LEAs) and State Educational Agencies (SEAs) can only do so in 
consortia with Native organizations. Furthermore, each grantee is 
required to provide for ``ongoing advice from and consultation with 
representatives of the Alaska Native community.'' Regardless, ANOs are 
often enlisted for the value of their imprimaturs, but not considered 
or involved as full partners in the consortia. Equal and quality 
partnerships and respectful consultation create a sound foundation for 
systems change and lead to the development of programs that can make a 
profound difference for Alaska Native students.
    We know from our own experience that our students benefit when 
Alaska Native organizations' (ANOs) involvement in their education is 
maximized. ANOs are ready, willing and able to be the lead grantees and 
contractors for ANEP funding. It is time that programs are designed and 
implemented with and by Alaska Natives, and that Alaska Natives are the 
experts consulted, employed, and nurtured throughout the process. If we 
had BIE funding in Alaska, we would have Alaska Native-controlled 
schools and programs. It would never enter anyone's mind to give BIE 
funding to a non-Native school district or program. Instead, we have 
ANEP. Please ensure that ANEP, or better yet, ANEEP, funding is used as 
it was intended to provide equity in education.
    The Alaska Federation of Natives passed a resolution in February 
2012 urging Congress to ensure that ANEP funding be administered 
through Alaska Native organizations. In addition, AFN wrote to the 
Alaska Delegation in April 2012 detailing their concerns with the 
current implementation of the program. I have included both documents 
and submit both for the record.
    Thank you for your longstanding support for this program, and we 
look forward to working with you on this issue in the future.

    Senator Murkowski. We will leave the record of hearing open 
until November 5th for any additional comments or materials 
that the witnesses may have. I mentioned the essays. I'd love 
to hear from the students and would certainly welcome all their 
comments.
    And, again, for those of you who are here, thank you for 
your interest in learning more about what we can do to 
celebrate our education successes and do right by our young 
people. And with that, the field hearing is adjourned with 
great thanks and appreciation.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                   Essay of Nicole George, Juneau, AK
                       high school roller coaster
    On my first day entering high school, I felt like a little fish 
entering a big pond. I was very inhibited, close-minded, and lacking 
diligence. It was very intimidating starting high school because I had 
to find a way to adjust to the classroom conversation. I was also 
hesitant in the aspect of presentations, speeches, and tutoring 
positions that were offered by teachers. Little did I know that my 
participation in the school would help me grow as an individual, help 
with the understanding of my peers, and my community as a whole.
    As the years went by, my high school experience was a roller 
coaster ride. My freshman year was the year that I had to find myself. 
Growing up as a native child in the village of Angoon, AK I was never 
the type of person to raise my hand to answer a question. This was the 
case for all my classes even the one I enjoyed the most. I was used to 
people assuming that I knew nothing when in reality I knew a great deal 
of information that was just waiting to come out. Like most I took part 
in extra-curricular activities such as basketball and volleyball. Along 
with those I took part in academic decathlon, Future Educators of 
Alaska (FEA), and Early Scholars. Freshman year my grades were decent 
but they could have been a lot better. I was a distracted student 
trying to find her spot in the world of high school.
    Sophomore year was the year that my shell started to crack. I was 
an emerging leader in the Early Scholars' community. I volunteered for 
every fundraising event and was the one Mrs. Reyes could go to for 
anything. My grades started to excel and I wanted my peers to be right 
by my side. I was becoming well-known and well-versed with the school 
faculty. I became an advocate for my peers who were just like me. I was 
giving them a voice when no one else would.
    Junior year was the time I wanted to take the school by the horns. 
My grades kept excelling and my shell was completely gone. I was 
comfortable talking in the public as it became more natural and 
eloquent. I became an avid reader and my writing comprehension and 
skills improved tremendously. I excelled in every activity that I did. 
I became a top competitor for the regional speech competitions for 
academic decathlon and I became a force to reckon with on the court. 
With some time and observation I mastered the ability to adapt and to 
appeal to all array of groups within the school. I was welcomed and 
valued in each group that I had the pleasure to join. Behind all the 
acquired skills and success I need to re-evaluate my focus. I was 
determined to do the work that was necessary to get into a good 
university but I also wanted to have time to self-indulge in activities 
that I enjoyed.
    My senior year had finally come and I was now using everything I 
had learned and built on based on my high school experience. I had 
become a critical thinker and my points of views on things had changed 
drastically. My maturity level had increased and I had become well-
rounded and better in the way I managed my time. I was an AVID tutor, a 
mentor for Early Scholars', a leader on the court, and a role model in 
the classroom. I had received the Gates Millennium Scholarship, the 
Denny Wilcher Award for young Environmental Activist, the Literature 
Award as well as the Self-Less Senior award at my high school.
    I contribute all my success to the community as well as the school 
faculty. I know every teacher and administrator at the high school and 
I have formed some type of relationship with them. In the community 
organizations such as Sealaska Corporation and Tlingit and Haida had 
helped me become well-versed and emerged in community issues facing 
Juneau. I was well aware of our young native students not graduating, 
the environmental issues that were arising, and the potential loss of 
our culture. I had obtained real world skills based on the experiences 
given to me by the community. If the State could fund and start 
programs like AVID and Early Scholars it would do the community some 
good. You would have students that were well-rounded and successful 
with the skills needed for the real world such as effective 
communication, team work, flexibility, and organization. Also if the 
school could cut down on the meetings faculty members had to partake 
in. I remember needing a teacher and they were never available because 
they had to run off to some meeting. Another word of advice is the 
mandatory advisory times. They really aren't necessary. If they could 
use that time for enrichment period, where it was optional for students 
to meet with teachers they needed to talk to, the teachers time and the 
students time would be used more effectively. The last thing I have to 
say is informing teachers and staff about the Alaska Native students. 
Not all but most students are shy and won't be the first to answer 
questions. I really liked what Sealaska did when they had the school 
district conference during the summer. If more events like that 
occurred to inform teachers it would break the barrier that they all 
face when trying to teach. Thank you for listening to my narrative.
                                 ______
                                 
                      Alaska Federation of Natives,
                                             Anchorage, AK,
                                                    April 25, 2012.
Hon. Daniel K. Inouye, Chair,
Committee on Appropriations,
U.S. Senate,
Washington, DC 20510.

Via e-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="94fff5e3f1cbf9fbe7e7f9f5fad4fdfafbe1edf1bae7f1faf5e0f1baf3fbe2ba">[email&#160;protected]</a>

    Dear Senator Inouye: As you know, our friend, the late Senator Ted 
Stevens originally authored the Alaska Native Education Equity, Support 
and Assistance Act in 1993 to create equity in education for Alaska 
Native people. The authorized funding was to address the following 
inequities: (1) Alaska receives no Bureau of Indian Education (BIE) 
funding, and the State is responsible for educating all Alaskans, 
including Alaska Natives, and (2) the State's and districts' track 
records on educating Alaska Native students are poor. In response, the 
Act sought to ensure that Alaska Native people were maximally involved 
in the planning and management of the Alaska Native Education program. 
Over time, the program has become known as the Alaska Native Education 
Program (ANEP). ANEP is designed to address Alaska Native students' 
needs in a threefold way by:

    1. focusing attention on the educational needs of Alaska Native 
students,
    2. investing substantial funding in the creation and operation of 
supplemental educational programs for Alaska Native students, and
    3. maximizing participation of Alaska Native people in the planning 
and management of Alaska Native education programs.

    I am attaching copies of the letters that I sent to the Honorable 
Lisa Murkowski who sits on the U.S. Senate Committee on Appropriations 
with you and the Honorable Mark Begich regarding the Alaska Native 
Education Program; these letters address ANEP comprehensively but in 
the interest of your time, my letter to you is very brief. It is my 
sincere hope that you would consider supporting appropriations by your 
committee that would lead to improving the quality of education for the 
Alaska Native students; and in particular, the implementation of ANEP.
    Thank you for your consideration. Your interests of improving the 
quality of life for the Alaska Natives have always been fully 
appreciated.
            Sincerely,
                                               Julie Kitka,
                                                         President.
                                 ______
                                 
                      Alaska Federation of Natives,
                                             Anchorage, AK,
                                                    April 24, 2012.
Hon. Lisa Murkowski,
709 Hart Senate Office Building,
U.S. Senate,
Washington, DC 20510.

Via e-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1b506972686f72444c727777727a76685b766e6970746c68707235687e757a6f7e357c746d">[email&#160;protected]</a>,
Fax: (202) 224-5301.

Hon. Mark Begich,
144 Russell Senate Office Building,
U.S. Senate,
Washington, DC 20510.

Via e-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a4e5cac0d6c1c5fbf7c5cac0c1d6d7e4c6c1c3cdc7cc8ad7c1cac5d0c18ac3cbd2">[email&#160;protected]</a>,
Fax: (202) 224-2354.
Hon. Don Young,
2314 Russell House Office Building,
U.S. House of Representatives,
Washington, DC 20515.

Via e-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="400d2132396e082932213433352b21002d21292c6e282f3533256e272f36">[email&#160;protected]</a>,
Fax: (202) 225-0425.

    Dear Senator Murkowski, Senator Begich, and Congressman Young: The 
late Senator Stevens originally authored the Alaska Native Education 
Equity, Support and Assistance Act in 1993 to create equity in 
education for Alaska Native people. The authorized funding was to 
address the following inequities: (1) Alaska receives no Bureau of 
Indian Education (BIE) funding, and the State is responsible for 
educating all Alaskans, including Alaska Natives, and (2) the State's 
and districts' track records on educating Alaska Native students are 
poor. In response, the Act sought to ensure that Alaska Native people 
were maximally involved in the planning and management of the Alaska 
Native Education program. Over time, the program has become known as 
the Alaska Native Education Program (ANEP).
    We appreciate your keen understanding of how important this program 
is for the success of Alaska Native students. We are especially 
grateful for your unquestionable support for the program over the years 
when it has been attacked as an earmark and/or as duplicative of other 
programs. We are increasingly concerned that the manner in which the 
Department of Education is implementing the Alaska Native Educational 
Equity, Support and Assistance Act is paying inadequate attention to 
the most important principle of the authorizing legislation: Equity. We 
hope to be able to rely on your assistance to address our growing 
concerns.
    ANEP is designed to address Alaska Native students' needs in a 
threefold way by:

    1. focusing attention on the educational needs of Alaska Native 
students,
    2. investing substantial funding in the creation and operation of 
supplemental educational programs for Alaska Native students, and
    3. maximizing participation of Alaska Native people in the planning 
and management of Alaska Native education programs.

    First, we are concerned that the program is not being adequately 
implemented, particularly in relation to the purpose of maximizing 
Alaska Native participation. Information on awards made prior to 2005 
is unavailable; however, the available information regarding previous 
ANEP awards clearly indicates that the majority of the funding over the 
last decade was awarded to non-Alaska Native organizations and entities 
(including school districts and universities), even though the law 
requires that the Department of Education (the Department) prioritize 
funding to Alaska Native organizations. The question has been raised as 
to whether Alaska Native organizations have the capacity to manage such 
grants. These suggestions are not consistent with the fact that Alaska 
Native organizations contract with and receive grants from the State 
and Federal Governments regularly. In fact, Alaska Native organizations 
working in the education arena have demonstrated not only capacity and 
competency, but positive outcomes for Alaska Native students.

                       Alaska Native Education Equity Act--Award/Funding Analysis 2005-11
----------------------------------------------------------------------------------------------------------------
                                                                                               Percent
           Organization type                                                                     of      Percent
                                                                                               grants   of funds
----------------------------------------------------------------------------------------------------------------
Alaska Native Organizations:..........  31 grants................  $39.3 million............      23.3     21.70
  ANO competitive awards only.........  23 grants................  $27.3 million............     17.29     17.72
Other Organizations:..................  102 grants...............  $114.7 million...........     76.70     78.30
  School districts....................  50 grants................  $75.7 million............      37.5      41.9
  Non-profits.........................  30 grants................  $37.2 million............      22.5     20.60
  Universities........................  22 grants................  $28.3 million............     16.50     15.60
----------------------------------------------------------------------------------------------------------------
Sec. 73C2(2) It is the policy of the Federal Government to encourage the maximum participation by Alaska Natives
  in the planning and the management of Alaska Native Education programs.
Sec. 7302(7) The Federal Government should lend support to efforts developed by and undertaken within the Alaska
  Native community to improve educational opportunity for all students.

    This trend is of particular concern, given that appropriators 
overrode the statute last year and directed the Department to implement 
all ANEP funding as competitive grants. This change puts all discretion 
regarding how ANEP money will be used in Alaska in the hands of the 
Department.
    Second, the statute provides a clear priority to Alaska Native 
regional nonprofits or consortia that include these organizations. 
However, this priority is being increasingly undermined by other 
priorities as identified by the Department. In the last 2 years, RFAs 
for the ANEP program gave only two points to applications from Alaska 
Native regional nonprofits (ANRO), and two points for each programmatic 
priority identified by the Department. The programmatic priorities 
seemed to parallel ``Race to the Top'' priorities, and were neither 
targeted to Alaska Native needs, nor relevant goals for supplemental 
education programs focused on outcomes for Alaska Native students. In 
fact, the priorities in the RFA were not even reflective of the 
priorities listed in the statute. In addition to last year's 
programmatic priorities, this year, novice applicants, including non-
Native organizations, were given a five-point priority. Again, ANROs 
were given only two points. As a result, the statutory priority given 
to ANROs was subordinated to a category created at the sole discretion 
of the Department. This action further undermines the equity provided 
by the original statutory priority. We urge you to address this 
directly with the Department. Furthermore, we look forward to working 
with you to explore legislative vehicles, such as appropriations report 
language and the reauthorization process as additional opportunities.
    Third, current statute allows the Secretary to make grants and 
enter into contracts with non-Native organizations, and also requires 
that LEAs and SEAs can only do so in consortia with Native 
organizations. Each grantee is required to provide for ``ongoing advice 
from and consultation with representatives of the Alaska Native 
community.'' The RFA does not require any evidence of plans for such 
consultation, but should. Anecdotally, we know that ANOs are often 
enlisted for the value of their imprimaturs, but not considered or 
involved as full partners in the consortia. AFN is currently surveying 
present and past ANEP grantees to more fully evaluate the breadth of 
this problem. We urge the delegation to address this issue of 
consultation and quality partnerships with the Department.
    Additionally, the Alaska Native Educational Equity, Support and 
Assistance Act was designed to solve current problems for students in 
Alaska, specifically Alaska Native students. The current measures of 
success written into the RFA reduce ANEP to a duplicative funding 
stream for advancing testing and school performance goals. Positioning 
ANEP in this way leaves it more vulnerable to opponents' claims that 
this program is duplicative. The intent of the program is not 
duplicative. In fact, it is essential, and the implementation of the 
program needs to be realigned with the original goals of the 
legislation. Priorities for this funding identified by the Department 
must be done in accordance with the statute, and in consultation with 
Alaska Native people. Furthermore, the measures of success for grant 
awards should not only include--but prioritize--measures that 
incorporate Alaska Native views of student success. Finally, efforts of 
data collection by Alaska Native organizations have been complicated by 
the provisions within the Family Educational Rights and Privacy Act 
(FERPA), and for ANEP partnerships between Alaska Native organizations 
and school districts to be fully realized, all parties must have equal 
access to the data on the students involved.
    We respectfully request your assistance to ensure maximum 
involvement of Alaska Natives in the success of Alaska Native students. 
Specifically, we urge the members of the Alaska congressional 
delegation to work together to address our concerns with the U.S. 
Department of Education by sending the Department a joint letter 
outlining the situation.
    Furthermore, we request your collaboration to leverage the 
reauthorization process to address these issues. Fundamentally, we 
believe that only Alaska Native organizations should be the lead 
eligible grantees and contractors for ANEP funding, and that LEAs, 
SEAs, universities and non-Native organizations should be required to 
apply as secondary grantees and contractors in consortia with Alaska 
Native organizations. We are convinced that such a change is required 
to maximize Alaska Native involvement in all levels of programming and 
is vital to the success of Alaska Native students and to the success of 
the program. It is time to ensure that programs are designed and 
implemented with and by Alaska Natives, and that Alaska Natives are the 
experts consulted, employed, and nurtured throughout the process. For 
that reason, we request that legislative language reflecting this 
change be incorporated into the reauthorization of ESEA, and to the 
furthest extent possible, be included in the appropriations process.
    We recognize that this request may require legislating on an 
appropriations bill, which is an unpopular tactic. However, ANEP was 
fundamentally altered last year in an appropriations bill by the 
inclusion of a rider that overrode the directed grants authorized in 
the statute. We look forward to open and thorough discussions with your 
offices on all options available to address these issues.
    In summary, we respectfully request your assistance in ensuring 
maximum involvement of Alaska Natives in the success of Alaska Native 
students. Specifically, we request that the delegation members: (1) 
Send a joint delegation letter to the U.S. Department of Education 
sharing our concerns, and work with the Department to improve 
implementation of ANEP; (2) Hold joint delegation field hearings around 
the State this summer to learn more about the needs of Alaska Native 
students and Alaska Native communities' expectations and standards as 
they relate to educational outcomes; (3) Work with each other and AFN, 
Sealaska, and CITC to identify what can be achieved during the 
appropriations process; and finally, (4) Work closely with each other, 
and us to prepare for the reauthorization process, whether the 
opportunity arises in the short-term or the long-term.
    We recognize that a number of our concerns require congressional 
action, and that vehicles are limited, and move quickly when available. 
For that reason, we are bringing all of our concerns to your immediate 
attention. It is our hope that we can collaborate to identify the best 
solutions and the appropriate vehicles as they become available. Thank 
you for your consideration.
    We look forward to working with you to improve education for Alaska 
Natives.
            Sincerely,
                                               Julie Kitka,
                                                         President.

    [Whereupon, at 5:57 p.m., the hearing was adjourned.]

                                 <all>


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
